Department of Homeland Security
   Ofﬁce of Inspector General

            Assessment of Federal Emergency 
 

            Management Agency's Emergency 
 

               Support Function Roles and 
 

                    Responsibilities 
 





OIG-11-08                                   November 2010
                                                            Office ofInspector General

                                                            u.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                           NOV 1 0 2010                      Security

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was 

established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment 

                                                                                                   1­

to the Inspector General Act 0/1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy, 

efficiency, and effectiveness within the department. 


This report addresses the Federal Emergency Management Agency's readiness to 

undertake its Emergency Support Function roles and responsibilities as outlined in the 

National Response Framework. It is based on interviews with agency employees and 

officials, direct observations, and a review of applicable documents. 


The recommendations herein have been developed to the best knowledge available to our 

office, and have been discussed in draft with those responsible for implementation. We 

trust this report will result in more effective, efficient, and economical operations. We 

express our appreciation to all of those who contributed to the preparation of this report.

                                      £;/~c<.~
                                     Richard L. Skinner
                                     Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2 
 


Results of Review ................................................................................................................5 
 


     ESF-2: Communications................................................................................................5 
 

     Recommendations........................................................................................................10 
 

     Management Comments and OIG Analysis ................................................................10 
 


     ESF-3: Public Works and Engineering .......................................................................10 
 

     Recommendations........................................................................................................16 
 

     Management Comments and OIG Analysis ................................................................16 
 


     ESF-5: Emergency Management ................................................................................17 
 


     ESF-6: Mass Care, Emergency Assistance, Housing, and Human Services ...............23 
 

     Recommendations........................................................................................................28 
 

     Management Comments and OIG Analysis ................................................................29 
 


     ESF-7: Logistics Management and Resource Support ................................................30 
 


     ESF-9: Search and Rescue ...........................................................................................36 
 

     Recommendations........................................................................................................42 
 

     Management Comments and OIG Analysis ................................................................42 
 


     ESF-14: Long-Term Community Recovery ................................................................42 
 

     Recommendations........................................................................................................47 
 

     Management Comments and OIG Analysis ................................................................47 
 


     ESF-15: External Affairs .............................................................................................48 
 

     Recommendations........................................................................................................54 
 

     Management Comments and OIG Analysis ................................................................54 
 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................55 
 

     Appendix B:           Management Comments to the Draft Report .......................................56 
 

     Appendix C:           ESF Coordinators and Primary and Support Agencies ........................64 
 

     Appendix D:           Major Contributors to this Report ........................................................67 
 

     Appendix E:           Report Distribution ..............................................................................68 
 

Abbreviations
  DHS           Department of Homeland Security
  ESF           Emergency Support Function
  FEMA          Federal Emergency Management Agency
  OIG           Office of Inspector General
Executive Summary
             The National Response Framework is a guide to how the Nation
             conducts all-hazards response. It incorporates 15 Emergency
             Support Function Annexes that group functional capabilities and
             resources to provide federal support to states and federal-to-federal
             support for disasters and emergencies, including those declared
             under the Robert T. Stafford Disaster Relief and Emergency
             Assistance Act (Public Law 100-707). The Federal Emergency
             Management Agency (FEMA) is the coordinator or primary
             agency for eight Emergency Support Functions and is responsible
             for ensuring that activities for these functions are accomplished as
             outlined in the National Response Framework.

             FEMA generally has fulfilled its Emergency Support Function
             roles and responsibilities. Specifically, the agency manages
             mission assignments, executes contracts, and procures goods and
             services for its Emergency Support Function activities. However,
             the agency can improve its coordination with stakeholders and its
             operational readiness.

             FEMA should be coordinating with stakeholders for all Emergency
             Support Functions. For example, there was little evidence that
             support agencies are regularly included in planning meetings for an
             Emergency Support Function mission, even though agency
             officials said that such coordination would be beneficial. The
             agency must coordinate these activities with all relevant federal
             departments and agencies, state and local officials, and private
             sector entities to effectively execute the Emergency Support
             Function mission.

             FEMA also should be fully prepared to provide community
             assistance after a disaster. Specifically, it is not conducting long-
             term recovery exercises, and one Emergency Support Function
             does not have clearly defined procedures to identify and deploy
             needed recovery services to disaster affected communities.

             The report contains 11 recommendations that, when implemented,
             should improve FEMA’s efforts to meet its Emergency Support
             Function roles and responsibilities.




            Assessment of Federal Emergency Management Agency’s
 

            Emergency Support Function Roles and Responsibilities
 


                                    Page 1
 

Background
             The National Response Framework presents the guiding principles
             that enable all response partners to prepare for and provide a
             unified national response to disasters and emergencies. The
             National Response Framework includes a number of Annexes that
             provide additional guidance for responding to disasters. These
             include support annexes, incident-specific annexes, and 15
             Emergency Support Function (ESF) Annexes. The federal
             government maintains a wide array of capabilities and resources
             that can be made available in response to a threat or disaster, and
             the ESF Annexes group together the key functions most commonly
             needed to respond to incidents.

             Each ESF has a coordinating federal agency, as well as primary
             and support agencies (see appendix C for a complete list of these
             agencies). The ESF coordinator is the entity with management
             oversight for that ESF and has ongoing responsibilities throughout
             the life cycle of incident management, from preparedness to
             response and recovery. Those responsibilities include—

                  •	 Coordinating before, during, and after an incident,
                     including pre-incident planning and coordination;
                  •	 Maintaining ongoing contact with primary and support
                     agencies;
                  •	 Conducting periodic ESF meetings and conference calls; and
                  •	 Coordinating efforts with corresponding private sector
                     organizations.

             A primary agency is a federal agency with significant authorities,
             roles, resources, or capabilities for a particular function within an
             ESF. Primary agency responsibilities include—

                  •	 Supporting the ESF coordinator and closely coordinating
                     with the other primary and support agencies;
                  •	 Notifying and requesting assistance from support agencies;
                  •	 Working with appropriate private sector organizations to
                     maximize use of all available resources;
                  •	 Conducting situation and periodic readiness assessments;
                  •	 Planning for short- and long-term incident management and
                     recovery operations;




             Assessment of Federal Emergency Management Agency’s
 

             Emergency Support Function Roles and Responsibilities
 


                                     Page 2
 

                              •	 Managing mission assignments1 and coordinating with
                                 support agencies, as well as appropriate state officials,
                                 operations centers, and agencies; and
                              •	 Ensuring financial and property accountability for ESF
                                 activities.

                          Support agencies have specific capabilities or resources that
                          support the primary agency in executing the ESF mission. These
                          agencies’ responsibilities include—

                              •	 Conducting operations, when requested by DHS or the
                                 designated ESF primary agency, consistent with their own
                                 authority and resources, except as directed otherwise
                                 pursuant to the Robert T. Stafford Disaster Relief and
                                 Emergency Assistance Act (Stafford Act);
                              •	 Participating in planning for short- and long-term incident
                                 management and recovery operations and the development
                                 of supporting operational plans, Standard Operating
                                 Procedures, checklists, or other job aids, in concert with
                                 existing first-responder standards;
                              •	 Assisting in the conduct of situational awareness; and
                              •	 Furnishing available personnel, equipment, or other
                                 resource support as requested by DHS or the ESF primary
                                 agency.

                          Table 1 lists each ESF and the corresponding federal departments
                          and agencies that serve as a coordinator and/or a primary agency.
                          No fewer than 12 federal departments and agencies have this
                          responsibility. ESFs where the Federal Emergency Management
                          Agency (FEMA) serves either as coordinator, primary agency, or
                          both are highlighted.




1
  Mission assignments are work orders issued by FEMA to other federal agencies directing the completion
of a specified task. As of June 2010, FEMA has developed 237 pre-scripted mission assignments with 29
federal agencies. Pre-scripted mission assignments include statements of work and cost estimates than can
be modified to meet event-specific needs.


                         Assessment of Federal Emergency Management Agency’s
 

                         Emergency Support Function Roles and Responsibilities
 


                                                 Page 3
 

       Table 1. Emergency Support Functions with Coordinator and Primary Agencies
         Emergency Support Function                     ESF Coordinator (C) or Primary Agency (P)
 ESF-1 Transportation                                   Department of Transportation (C/P)
                                                        DHS/National Communications System (C/P)
 ESF-2 Communications
                                                        DHS/FEMA (P)
                                                        Department of Defense/U.S. Army Corps of
 ESF-3 Public Works and Engineering                     Engineers (C/P)
                                                        DHS/FEMA (P)
 ESF-4 Firefighting                                     Department of Agriculture/Forest Service (C/P)
 ESF-5 Emergency Management                             DHS/FEMA (C/P)
 ESF-6 Mass Care, Emergency Assistance,
                                                        DHS/FEMA (C/P)
 Housing, and Human Services
 ESF-7 Logistics Management and Resource                DHS/FEMA (C/P)
 Support                                                General Services Administration (C/P)
                                                        Department of Health and Human Services
 ESF-8 Public Health and Medical Services
                                                        (C/P)
                                                        DHS/FEMA (C/P)
                                                        Department of Defense/U.S. Air Force (P)
 ESF-9 Search and Rescue                                DHS/U.S. Coast Guard (P)
                                                        Department of Interior/National Park Service
                                                        (P)
                                                        Environmental Protection Agency (C/P)
 ESF-10 Oil and Hazardous Materials Response
                                                        DHS/U.S. Coast Guard (P)
                                                        Department of Agriculture (C/P)
 ESF-11 Agriculture and Natural Resources
                                                        Department of Interior (P)
 ESF-12 Energy                                          Department of Energy (C/P)
 ESF-13 Public Safety and Security                      Department of Justice (C/P)
                                                        DHS/FEMA (C/P)
                                                        DHS (P)
                                                        Department of Agriculture (P)
 ESF-14 Long-Term Community Recovery
                                                        Department of Housing and Urban
                                                        Development (P)
                                                        Small Business Administration (P)
                                                        DHS (C)
 ESF-15 External Affairs
                                                        DHS/FEMA (P)
Source: National Response Framework, Emergency Support Function Annex




                           Assessment of Federal Emergency Management Agency’s
 

                           Emergency Support Function Roles and Responsibilities
 


                                                   Page 4
 

Results of Review
                    FEMA generally has fulfilled its Emergency Support Function roles and
                    responsibilities. Specifically, the agency manages mission assignments,
                    executes contracts, and procures goods and services for its Emergency
                    Support Function activities. However, the agency can improve its
                    coordination with stakeholders and its operational readiness. For example,
                    there was little evidence that support agencies are regularly included in
                    planning meetings for an Emergency Support Function mission, even
                    though agency officials said that such coordination would be beneficial.
                    FEMA must coordinate these activities with all relevant federal
                    departments and agencies, state and local officials, and private sector
                    entities to effectively execute the Emergency Support Function mission.

                    FEMA also should be fully prepared to provide community assistance
                    after a disaster. Specifically, it is not conducting long-term recovery
                    exercises, and one Emergency Support Function does not have clearly
                    defined procedures to identify and deploy needed recovery services to
                    disaster affected communities.

          ESF-2: Communications
                    ESF-2 Communications is responsible for supporting the restoration of the
                    communications infrastructure, coordinating federal communications
                    support to response efforts, and facilitating the recovery of systems and
                    applications from cyber attacks. ESF-2 also provides communications
                    support to federal, state, tribal, and local governments as well as first
                    responders when their systems have been affected. Finally, ESF-2
                    provides communications and information technology support to the Joint
                    Field Office and field teams.2 DHS’ National Communications System is
                    both the ESF-2 coordinator and a primary agency, while FEMA is the
                    other primary agency.




2
  A Joint Field Office is a temporary federal facility established locally to provide a central point for federal, state,
local, and tribal executives with responsibility for incident oversight, direction, and assistance to effectively coordinate
protection, prevention, preparedness, response, and recovery actions.


                              Assessment of Federal Emergency Management Agency’s
 

                              Emergency Support Function Roles and Responsibilities
 


                                                          Page 5
 

       Figure 1. Utility workers repair communication lines




       Source: FEMA

FEMA’s ESF-2 focus is supporting public safety communications during a
disaster. FEMA designates the personnel for supporting tactical
communications functions and provides communications support to state,
tribal, and local first responders, as well as to the Joint Field Office, its
field teams, and other federal response teams.

       Coordination With ESF Stakeholders

       FEMA works closely with the National Communications System
       to coordinate with ESF-2 federal partners, state and local
       governments, and the private sector. This is accomplished through
       interagency meetings as well as more informal mechanisms, such
       as telephone calls and e-mail correspondence. During normal
       operations, FEMA participates in a weekly call hosted by the
       National Communications System with other federal agencies,
       state and local jurisdictions, as well as the private sector.

       When ESF-2 is activated, departments and agencies participate in
       FEMA video teleconferences run through the National Response
       Coordination Center, which provide situation awareness updates to
       stakeholders. A situation report is distributed detailing the current
       status of the event, communications issues that have arisen,
       ongoing communications activities by federal and state partners,
       and the priorities for ESF-2 moving forward. After an incident,
       FEMA officials participate in after-action reviews conducted
       through the National Communications System. The private sector
       is included in these reviews and in a winter seminar that brings
       together public and private sector partners. However, the most
       recent winter seminar was held in 2008.


       Assessment of Federal Emergency Management Agency’s
 

       Emergency Support Function Roles and Responsibilities
 


                               Page 6

To further facilitate coordination, FEMA has supported the
establishment of the legislatively mandated Regional Emergency
Communications Coordination Working Groups in the 10 FEMA
Regions. Group membership includes emergency response
organizations from federal, state, local, and tribal governments,
nongovernmental organizations, and private sector entities. Each
group meets at least twice a year to discuss emergency
communications issues with federal, state, and local stakeholders.
FEMA officials said that most groups supplement face-to-face
meetings with regular teleconferences. FEMA is assisting each
group to develop annual reports mandated by the Post-Katrina
Emergency Management Reform Act (Public Law 109-295) to the
FEMA Regional Administrators, which FEMA headquarters will
then consolidate into a single report to the Federal
Communications Commission and other federal partners. FEMA
officials said that the groups are in various stages of drafting these
annual reports.

FEMA is involved in numerous catastrophic and other incident
planning initiatives for ESF-2. For example, the Federal
Interagency Hurricane Concept of Operations Plan and the Interim
Federal Interagency Improvised Nuclear Device Concept of
Operations Plan all contain an annex detailing communications
plans for such events. FEMA is also helping create state and
regional emergency communications plans and has assisted with
developing 31 state and 9 regional plans to help these entities
prepare to deploy and preposition resources for catastrophic
events.

Operational Readiness

FEMA has trained staff and significant communications assets
available for ESF-2 functions. If ESF-2 is activated, FEMA can
provide communications support to the local emergency
community. FEMA’s Mobile Emergency Response Support
detachments have approximately 230 highly qualified
multidiscipline personnel and more than 40 specialized vehicles
spread across six geographical regions. Each detachment has a
stand-alone capability to support federal, state, and local
emergency responders with interoperable communications;
information processing; and operational, logistical, power
generation, and life support capabilities. FEMA has deployed
Mobile Emergency Response Support detachments in connection
with numerous major incidents. Training for personnel includes

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 7

                           operator-level, discipline-specific instruction by experienced
                           members within each detachment, vendor-provided training, and
                           training from the Emergency Management Institute.

                           FEMA participates in both internal and external ESF-2 exercises.
                           FEMA has participated in multiple communications-oriented
                           exercises, including the Defense Interoperability Communications
                           Exercise, Vigilant Accord, and Eagle Horizon. FEMA has also
                           begun to conduct no-notice “thunderbolt” exercises3 to assess the
                           readiness of its components. One such exercise conducted in
                           Region V deployed a Mobile Emergency Response Support
                           detachment, which identified shortcomings in the information
                           technology systems. In April 2010, FEMA participated in an
                           exercise that replicated the activation, deployment, response,
                           recovery, and deactivation of ESF-2 operations. The exercise
                           included all ESF-2 partners, among them state, county, and city
                           officials. After-action reviews are also conducted after each
                           deployment and shared with all the Mobile Emergency Response
                           Support detachments and FEMA headquarters. These reviews help
                           identify areas of needed improvement for future events.

                           FEMA is collaborating with the National Communications System
                           to develop ESF-2 Standard Operating Procedures that will be the
                           foundation for creating task books and job aids, as well as outline
                           the roles, responsibilities, and procedures for incident
                           management. While FEMA officials said that FEMA’s ESF-2
                           responsibilities focus on response, the draft Standard Operating
                           Procedures outline FEMA’s responsibility in ensuring a smooth
                           transition to and help during the recovery phase of an incident.
                           FEMA officials did not know when the National Communications
                           System will publish the finalized Standard Operating Procedures.

                           FEMA has worked to identify new technologies and other
                           improvements to increase the capabilities of the Mobile
                           Emergency Response Support detachments. A major component
                           of this effort is upgrading the Mini-Emergency Operations
                           Vehicles. These vehicles had limited communications capabilities,
                           serving mainly as mobile offices for operations. FEMA has
                           upgraded these vehicles to be able to provide better
                           communications support to the mobile operations of the
                           detachments.


3
  Administrator Fugate instituted a program of notice and no-notice exercises to help determine the
readiness of FEMA components to respond to incidents.


                          Assessment of Federal Emergency Management Agency’s
 

                          Emergency Support Function Roles and Responsibilities
 


                                                  Page 8
 

Financial Management and Accountability

FEMA has pre-scripted mission assignments for ESF-2 and other
mechanisms in place to help maintain financial management and
accountability. FEMA has established 11 pre-scripted mission
assignments for ESF-2 with five different federal agencies to
expedite assistance. These assignments include statements of work
and cost estimates that can be modified to meet event-specific
needs. ESF-2 mission assignments include staffing for the
National Response Coordination Center and other coordination and
response teams, impact assessments of the affected area, and
communications equipment support. The draft Standard Operating
Procedures outline the importance of maintaining clear records of
the mission assignments used during operations.

FEMA officials said that they do not execute contracts to support
ESF-2 operations specifically, but some contracts that FEMA uses
on a day-to-day basis can also be used to respond to an incident.

Conclusion

Overall, FEMA is fulfilling its ESF-2 roles and responsibilities.
FEMA coordinates well with the National Communications
System and has mechanisms in place to coordinate with other
stakeholders, including through the regions. However, FEMA
needs to consistently hold meetings with stakeholders and
complete required reports from the regions to ensure continued
coordination with stakeholders and to assess emergency
communications capabilities and needs.

FEMA can provide trained staff and teams in the event of an
incident. These operational detachments have identified
technology needs for the mission, and FEMA is in the process of
making the necessary equipment upgrades. FEMA also includes
emergency communications needs in its planning initiatives and
exercises its capabilities regularly. To supplement its own staff
and resources, FEMA has 11 ESF-2 pre-scripted mission
assignments to help respond to incidents. In addition, the draft
ESF-2 Standard Operating Procedures outlines the importance of
clear record keeping and financial accountability.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                        Page 9
 

     Recommendations
            We recommend that the Director for Disaster Emergency
            Communications:

            Recommendation #1: Complete the statutorily required annual
            reports from the Regional Emergency Communications
            Coordination Working Groups to ensure that any issues identified
            in the regions are addressed and to assess communications
            capabilities in the regions.

     Management Comments and OIG Analysis
            Recommendation #1: FEMA concurred with this recommendation
            and has provided OIG a copy of the FY 2009 Regional Emergency
            Communications Coordination Working Groups Report.

            We consider this recommendation closed because OIG was
            provided a copy of the FY 2009 Regional Emergency
            Communications Coordination Working Groups Report.

ESF-3: Public Works and Engineering
     ESF-3 Public Works and Engineering coordinates and organizes the
     federal government’s capabilities and resources to deliver services,
     technical assistance, engineering expertise, construction management, and
     other support to prepare for, respond to, or recover from an incident. The
     U.S. Army Corps of Engineers is both the coordinating agency and a
     primary agency, while FEMA is the other primary agency.




           Assessment of Federal Emergency Management Agency’s
 

           Emergency Support Function Roles and Responsibilities
 


                                  Page 10
 

Figure 2. Flooding in Tennessee




Source: FEMA

FEMA’s ESF-3 focus is recovery. FEMA is responsible for providing
recovery resources and support, including assistance under the Public
Assistance Grant Program. This program provides supplemental federal
disaster grant assistance for debris removal and disposal; emergency
protective measures; and the repair, replacement, or restoration of disaster-
damaged public facilities and the facilities of certain qualified private
nonprofit organizations. The Public Assistance Grant Program distributes,
on average, just under $3 billion in disaster assistance to states and
localities every year.

       Coordination With ESF Stakeholders

       FEMA is coordinating with the U.S. Army Corps of Engineers,
       state and local governments, and private sector organizations.
       However, FEMA needs to enhance its coordination with ESF-3
       support agencies, which would be beneficial to the mission of the
       Public Assistance Grant Program.

       During an incident FEMA assigns an ESF-3 Public Assistance
       Officer to coordinate and manage interagency infrastructure
       recovery programs and the Public Assistance Grant Program. To
       aid coordination, the U.S. Army Corps of Engineers’ ESF-3
       representative is physically located at FEMA headquarters.
       FEMA, however, demonstrated little coordination between ESF-3
       support agencies beyond operations within the National and
       Regional Response Coordination Centers. On the other hand,
       some of the ESF-3 support agencies may not be necessary to


       Assessment of Federal Emergency Management Agency’s
 

       Emergency Support Function Roles and Responsibilities
 


                              Page 11

conduct ESF-3 functions. For example, the American Red Cross is
listed as a support agency that works with the U.S. Army Corps of
Engineers, FEMA, and other entities to “ensure integration of
commodities requirements and distribution processes into mass
care operations.” However, within the National Response
Framework, ESF-6 covers mass care operations and ESF-7 handles
logistics, so the American Red Cross may not be necessary as an
ESF-3 support agency.

After an incident, FEMA officials co-lead workshops and breakout
groups at the annual U.S. Army Corps of Engineers Remedial
Action Plan workshop to determine if policy or doctrinal
adjustments are necessary. FEMA and the U.S. Army Corps of
Engineers held a Senior Leaders’ Seminar in April 2009 to work
through additional interagency policy and procedural issues that
occurred in real-world events and were raised during the
workshop. Only 3 of 18 support agencies (the Environmental
Protection Agency, the Department of Transportation, and the U.S.
Coast Guard) attended the most recent workshop held in December
2009.

To further coordinate recovery efforts with the U.S. Army Corps of
Engineers, other support agencies, state, local, and tribal
governments, as well as the private sector, FEMA has published
Standard Operating Procedures for Essential Infrastructure
Assessments to establish a systematic approach for conducting
assessments and to maintain consistency in the use of assessment
results. The Standard Operating Procedures outlines the roles and
responsibilities of FEMA, state and local governments, and other
responding federal agencies. It ensures that all parties involved in
infrastructure assessments understand the priorities and process by
which assessments will be conducted.

To coordinate with state and local governments, FEMA conducts
annual meetings with the states to discuss issues relating to the
Public Assistance Grant Program. The 13th annual meeting was
held in November 2009, with discussions on public works issues
such as debris removal and infrastructure assessments. To further
help state and local government officials navigate the program,
FEMA has also published numerous guides so participants can
obtain and administer public assistance funding. Furthermore,
after an incident, FEMA utilizes a customer survey for state and
local governments to assess the program and suggest
improvements. FEMA is also working with and encouraging state


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 12

and local governments to establish their own debris management
plans.

The private sector owns or operates a large proportion of the
Nation’s infrastructure and is a partner or lead for the rapid
restoration of infrastructure-related services. Because for-profit
entities are not eligible for public assistance, FEMA primarily
coordinates with trade associations that represent the private
sector. FEMA engages with organizations such as the American
Public Works Association and the National Rural Electrical
Cooperative Association for technical assistance and information
gathering to restore the Nation’s critical infrastructure.

FEMA is involved in some catastrophic planning and exercises for
ESF-3, but it is unclear how these efforts are coordinated with
other ESF-3 agencies. FEMA is updating the Catastrophic
Concept of Operations Plan for the Public Assistance Grant
Program, which focuses on topics such as staffing levels, essential
infrastructure assessments, and large facility assessments. The
Public Assistance Division has also coordinated with various other
FEMA components throughout the planning process for the New
Madrid Seismic Zone Catastrophic Earthquake Planning Project.
Additionally, FEMA has worked with the U.S. Army Corps of
Engineers and the Environmental Protection Agency to plan for
incidents requiring the removal of contaminated debris, and has
conducted an exercise with those partners to test the plan.

FEMA participated in exercise activities, such as planning and
after action reviews, in October 2009 for eight exercises, including
two major earthquakes, two radiological, two nuclear, and a mass
migration event. These planning exercises incorporated ESF-3
activation; however, it is unclear what role the Public Assistance
Grant Program plays in these exercises. For example, during a
July 2009 hurricane exercise involving the state of Florida and
FEMA Region IV, only three ESF-3 personnel were in attendance:
one from the U.S. Army Corps of Engineers and two from FEMA.
No ESF-3 support agencies were involved in the exercise, the
exercise documents do not show any requests for ESF-3 assistance,
and none of the ESF-3 participants took part in the after-action
review, even though Phase II of the exercise focused on response
and recovery issues. One of the issues identified was the need for
better communication and coordination between the ESFs and the
Regional Response Coordination Center. It is unclear whether
FEMA did not invite the support agencies to the exercise and the
after-action review, or whether the agencies were invited but chose

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 13

not to participate. It is also unclear how FEMA will address this
issue.

In February 2010, FEMA released a draft copy of the National
Disaster Recovery Framework; however, this document is not
consistent with ESF-3 or the National Response Framework.
Under the Infrastructure Systems Recovery Support Function of
the National Disaster Recovery Framework, the coordinating
agency for these recovery efforts has yet to be determined, even
though FEMA is the primary agency responsible for coordinating
recovery efforts under ESF-3. These two documents should be
aligned to prevent confusion during and after an incident.

Operational Readiness

FEMA has a significant number of trained staff for operations
functions at fixed and field facilities; however, this staffing level
may not be sufficient to respond to an incident. When activated,
ESF-3 representatives deploy to the National and Regional
Response Coordination Centers. The ESF-3 Team Leader at the
Regional Response Coordination Center coordinates assignments,
actions, and other support until the Joint Field Office is
established. FEMA Public Assistance personnel also deploy to
initiate regional support of ESF-3 functions. According to FEMA
officials, there are 36 full-time Public Assistance Grant Program
employees working at FEMA Headquarters and approximately 30
working in the FEMA regions. To supplement this force, the
program has a cadre of more than 1,200 Disaster Assistance
Employees who can be deployed to an incident. However, as of
February 2010, 43% of the cadre was deployed to previous
disasters and 42% was “unavailable,” leaving only 15% available
for deployment. It is unclear whether the 191 remaining reservists
are adequate to respond to future disasters. FEMA officials said
that these numbers do not paint a complete picture, however,
because when a disaster strikes, more Disaster Assistance
Employees make themselves available. FEMA officials said that
typically 50% of the reserve cadre is available for response.

The Disaster Assistance cadre of employees will be one of the first
with a credentialing system in place. There is also a training
curriculum for each position. However, this training provides only
basic Public Assistance Grant Program information and is limited
to classroom instruction.




Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 14

FEMA has identified new technology and procedures to improve
its ESF-3 recovery capabilities. For example, FEMA’s Public
Assistance Division has utilized new technology to estimate the
size of debris that needs to be removed following an incident. The
new technology uses geospatial information to estimate the amount
of debris in a location. By using estimates, FEMA can determine
more efficiently and effectively the amount of damage caused by a
disaster and speed recovery funding to the area. This technology is
available to FEMA in a limited quantity and has not been deployed
nationwide.

Financial Management and Accountability

FEMA has executed contracts to help fulfill its ESF-3 roles and
responsibilities. FEMA has three Public Assistance technical
assistance contracts which it executes to procure architect and
engineering services after an incident. These contracts also
provide additional staffing for FEMA disaster activities.

FEMA is also prepared to manage mission assignments. FEMA
established 18 pre-scripted mission assignments with the U.S.
Army Corps of Engineers for ESF-3 missions that cover pre-
incident, operational, post-incident, and oversight assistance.
These missions include emergency power and water restoration,
debris removal, technical assistance for states, and staffing
assistance at all levels.

To further assist with financial management oversight, recipients
of Public Assistance grants of more than $500,000 are required to
perform a single audit or a program-specific audit and are also
subject to additional audits by the DHS Office of Inspector General
and other state auditors.

Conclusion

Overall, FEMA is positioned well to fulfill its ESF-3 mission.
FEMA coordinates with the U.S. Army Corps of Engineers as well
as with state and local governments. However, FEMA needs to
enhance its coordination with ESF-3 support agencies to fulfill its
role as a primary agency. There is little evidence that support
agencies are regularly included in planning for ESF-3 missions,
despite the fact that FEMA officials said such coordination would
be beneficial to its own efforts. On the other hand, some support
agencies may not be necessary to conduct ESF-3 functions.
FEMA should consider whether ESF-3 support agencies, such as

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 15

     the American Red Cross, are better placed or are already covered
     within other ESF annexes.

     FEMA has a significant number of trained staff to be used for
     operations functions at fixed and field facilities; however, without
     a staffing model, it is unclear whether this staffing level is
     sufficient to respond to an incident. FEMA also has mechanisms
     in place to ensure that funds spent on ESF-3 missions are properly
     spent. FEMA has contracts and pre-scripted mission assignments
     to help control costs and assist in financial management oversight.
     Furthermore, regulations governing the Public Assistance Grant
     Program and audit requirements help to ensure proper use of
     government funds.

     The draft copy of the National Disaster Recovery Framework is
     not consistent with ESF-3 or the National Response Framework.
     These two documents should be aligned to prevent confusion
     during and after an incident.

Recommendations
     We recommend that the Director of the Public Assistance
     Directorate:

     Recommendation #2: Ensure that FEMA fulfills its ESF-3
     requirements, including coordinating with ESF-3 primary and
     support agencies on both planning and operations.

     Recommendation #3: Examine FEMA’s classification as a
     primary agency for ESF-3 since its roles and responsibilities are
     similar to those of other support agencies and examine the
     suitability of all listed ESF-3 support agencies given that they are
     often not active participants in planning or exercises.

     Recommendation #4: Ensure ESF-3 responsibilities are aligned
     with the National Disaster Recovery Framework and evaluate
     whether FEMA’s recovery portion of ESF-3 is still a necessary
     part of ESF-3 and the National Response Framework as a whole.

Management Comments and OIG Analysis
     Recommendation #2: FEMA concurred with this recommendation
     and said that it is fulfilling its ESF-3 requirements and
     responsibilities through the Public Assistance Program by staffing


    Assessment of Federal Emergency Management Agency’s
 

    Emergency Support Function Roles and Responsibilities
 


                           Page 16

           the Infrastructure Support Branch Director position when ESF-3 or
           other infrastructure ESFs are activated pursuant to the National
           Response Framework. FEMA also said that they have held regular
           meetings, teleconferences, planning workshops, joint training, and
           issued guidance on debris removal. Additionally, FEMA said that
           interagency task forces are in place for debris, levee, and other
           recovery related matters in order to coordinate a federal response.

           We consider this recommendation resolved because steps are being
           taken to implement it; however, it will remain open until FEMA
           provides documentation that it is coordinating with ESF-3 primary
           and support agencies on both planning and operations.

           Recommendation #3: FEMA concurred with this recommendation
           and said that it will continue to examine its current role under ESF-
           3; however, FEMA does not plan to propose a re-designation of
           FEMA under ESF-3.

           We consider this recommendation resolved because steps are being
           taken to implement it; however, it will remain open until evidence
           is provided that FEMA is examining its current role under ESF-3.

           Recommendation #4: FEMA concurred with this recommendation
           and said that it has continued its efforts with other federal agencies
           and partners in developing the National Disaster Recovery
           Framework and the Recovery Support Function construct. FEMA
           also said that transitions between ESFs under the National
           Response Framework and the Recovery Support Functions under
           the National Disaster Recovery Framework are being discussed
           and coordinated as the Recovery Support Functions annexes are
           developed.

           We consider this recommendation resolved because steps are being
           taken to implement it; however, it will remain open until evidence
           is provided that is has been fully implemented.

ESF-5: Emergency Management
    ESF-5 is the coordination function for all federal departments and
    agencies across the spectrum of domestic incident management from
    hazard mitigation and preparedness to response and recovery. ESF-5 is
    designed to identify resources for alert, activation, and subsequent
    deployment for quick and effective incident response. During the post-
    incident response phase, ESF-5 is responsible for the support and planning


          Assessment of Federal Emergency Management Agency’s

          Emergency Support Function Roles and Responsibilities


                                 Page 17

functions which include critical activities that facilitate multiagency
planning and coordination for operations involving incidents requiring
federal coordination. They include alert and notification; staffing and
deployment of DHS and FEMA response teams, as well as response teams
from other federal departments and agencies; incident action planning;
coordination of operations; logistics management; and other support
functions as required.

Figure 3. President Obama chairs hurricane briefing at the National
Response Coordination Center




Source: The White House

FEMA is the coordinator and primary agency for ESF- 5 Emergency
Management. FEMA is responsible for supporting overall activities of the
federal government for domestic incident management. FEMA also
coordinates with appropriate state and local officials, as well as the private
sector, to utilize all available resources.

       Coordination With ESF Stakeholders

       FEMA is coordinating with ESF-5 support agencies, state and local
       officials, and the private sector. According to FEMA officials,
       they use a number of methods, including meetings, exercises, and
       video teleconferencing, to coordinate ESF-5 activities for all
       phases of an incident and develop disaster plans.

       Periodically, FEMA conducts ESF Leaders Group meetings and
       exercises, interagency planning meetings, and has Regional
       Interagency Steering Committees for all 10 FEMA regions. Pre-


       Assessment of Federal Emergency Management Agency’s
 

       Emergency Support Function Roles and Responsibilities
 


                              Page 18

incident coordination among ESF-5 and the ESF Leaders Group
allows an opportunity to discuss their roles and responsibilities in
the context of National Response Coordination Center
requirements and actions during a disaster. All 15 ESF Leaders
were present at an exercise to discuss anticipated federal support
requirements and policy decisions the ESF Leaders Group would
likely encounter. In addition, the exercise allowed participants to
identify gaps in interagency, agency, and National Response
Coordination Center plans, policies, and prescribed procedures.

During incidents, the primary coordination method is video
teleconferences conducted at the National Response Coordination
Center to discuss updates and response strategies to an incident.
These teleconferences usually include White House, federal, and
state officials, as well as national volunteer organizations involved
in the response. Video teleconferences are critical to the
coordination effort provided by ESF-5, not only during the
response phase but also prior to a disaster and during the recovery
phase. The video teleconferences enable all federal, state, and
local response partners to communicate their efforts to one another
and potentially eliminate duplicate response efforts.

After incidents, FEMA and other federal agencies implement a
daily disaster coordination plan to assist with response and
recovery. The daily coordination plan provides federal incident
managers with a daily meeting schedule and control objectives for
the incident, ranging from maintaining situational awareness and
supporting requests from impacted regions to general coordination
among state, local, tribal, and nongovernmental partners.
Additionally, at the Joint Field Offices, FEMA uses incident action
plans to coordinate activities with federal and state partners. These
plans include incident objectives to address issues at the local
level, and may range from continuing hazardous material cleanup
to conducting kickoff meetings for Public Assistance applicants.

FEMA also coordinates the ESF-5 mission with the private sector.
FEMA coordinated an outreach effort with the private sector in
Tennessee regarding its recent flood disaster. At the request of a
Home Depot store manager, FEMA extended an outreach program
geared toward helping the local community mitigate any future
disasters.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                       Page 19
 

Operational Readiness

FEMA has advanced its ESF-5 operational readiness efforts
through “thunderbolt” no-notice exercises, National Response
Team Readiness meetings, and new technology for incident
response. Many of the resources utilized before and during an
incident are also effective tools for short- and long-term recovery
efforts, including the incident action plan and the federal
interagency Terrorist Use of Explosives Concept of Operations
Plans.

FEMA’s Response Directorate, in partnership with the National
Preparedness Directorate’s National Exercise Division, leads
“thunderbolt” exercises for FEMA. Participants in these exercises
include FEMA headquarters and field personnel. A team of
subject matter experts observes and evaluates the exercises to
identify strengths and areas for improvement. A recent
“thunderbolt” exercise scenario tested the regional Incident
Management Assistance Teams and focused on alerting, notifying,
and activating the regional operations and establishing an initial
incident management operating facility.

Additionally, in June 2010 ESF-5 conducted a Tabletop Exercise
for the 2010 Hurricane Season for the ESF Leaders Group. The
interagency exercise was designed to promote informal discussion
regarding the role and responsibilities of various interagency
components during a plausible hurricane threat. Following the
exercise, participants were given the opportunity to discuss
strategies, planning, policies, procedures and resources to the
needs of the overall response. In response to our inquiry about
trained ESF-5 staff that could be provided for operations functions
at fixed and field facilities to support interagency response efforts,
FEMA officials provided us with its daily Disaster Reserve
Workforce Division, Disaster Assistance Employee availability
report. The Disaster Reserve Workforce consists of non-
permanent employees appointed under the Stafford Act and
activated or deployed to perform disaster-specific response and
recovery activities.

FEMA is looking for new technological advances to assist its
response effort. FEMA requirements for this system include the
ability to interface with smartphones and multiple social media, to
manipulate data for analysis, and to interact with other federal
agencies, states, and nongovernmental organizations. The system
must also interface with existing FEMA systems and provide

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 20

information-tracking and reporting functions, among other
requirements. ESF-5 is considering multiple systems to fulfill
these requirements. One such system is designed to increase the
situational awareness of analysts and mission partners. This
system is capable of showing geospatial information in
chronological order of planned activities and reported incidents
related to the public safety and security.

To help facilitate short-term recovery activities, FEMA will open a
Joint Field Office to centrally locate federal and state disaster
employees. As part of the daily incident action plan, ESF-5
distributes a division assignment list with all the work assignments
due to start that day or continuing from previous days. To help
conduct long-term recovery activities, Federal Concept of
Operations Plans are being written for the 15 planning scenarios in
which ESF-5 has a significant role. The purpose of the plans is to
outline federal prevention, protection, response, and recovery
operations. For example, ESF-5 will be responsible for
coordinating, through the National Response Coordination Center,
response and recovery efforts for all ESFs if a Terrorist Use of
Explosives incident occurs.

Incident action plans are another tool used to facilitate recovery
efforts. The incident action plan work assignments are approved
by the Federal Coordinating Officer at the Joint Field Office.
Some of the work assignments include formation or reactivation of
Long-Term Recovery Committees; coordination with ESF-10
public assistance; and coordination with the Tennessee Emergency
Management Agency on debris and hazardous waste issues.

Financial Management and Accountability

FEMA continues to improve its efforts with ensuring financial
management and accountability for the ESF-5 mission. For
example, FEMA requires mission assigned departments and
agencies to submit a monthly progress report, a reimbursement
transmittal, and a mission assignment bill review sheet. Mission
assignment managers and regional coordinators analyze this
information for accuracy and completeness. FEMA has also been
instrumental in training DHS and other federal department and
agency officials about the mission assignment process.

FEMA uses pre-scripted mission assignments to procure services
to fulfill its ESF-5 roles and responsibilities. FEMA has pre-


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 21

scripted mission assignments with several federal agencies,
including the Department of Defense’s National Geospatial-
Intelligence Agency and the National Weather Service. ESF-5 has
a pre-scripted mission assignment with the National Geospatial-
Intelligence Agency to provide analytical support to the Regional
Response Coordination Center.

FEMA officials said that the agency annually provides DHS and
other federal departments and agencies opportunities to attend
mission assignment training prior to hurricane season. The goal of
the training is to provide participants with key mission assignment
concepts and the knowledge to carry out their assigned
responsibilities related to mission assignment processing. A
premise of the course is to bring together program and financial
staff who share the responsibility for mission assignment issuance,
execution, billing, reimbursement, and closeout. The last training
session was held in May 2009 and was attended by representatives
from several federal agencies and programs.

Conclusion

FEMA is fulfilling its ESF-5 roles and responsibilities.
Throughout all phases of an incident, FEMA coordinates its ESF-5
activities with its stakeholders by coordinating meetings, exercises,
and Regional Interagency Steering Committees, and producing
daily coordination plans to assist with disaster operations.

Additionally, FEMA has made strides enhancing ESF-5
operational readiness through “thunderbolt” no-notice exercises,
National Response Team Readiness meetings, and incident action
plans, and by actively participating in the development of the
Terrorist Use of Explosives Concept of Operations Plan.

Finally, FEMA has procedures in place to ensure financial
management and accountability in support of the ESF-5 mission.
FEMA also has pre-scripted mission assignments to procure
services for the ESF-5 mission and has provided a vital service to
DHS and other federal department and agency officials by offering
mission assignment training. This training ensures that
participants are made aware of concepts and procedures that will
assist them in performing their mission assignment processing
responsibilities.




Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 22

ESF-6: Mass Care, Emergency Assistance, Housing, and Human
Services
     ESF-6 Mass Care, Emergency Assistance, Housing and Human Services,
     is responsible for coordinating the delivery of federal mass care,
     emergency assistance, housing, and human services when response and
     recovery needs exceed state, local, and tribal capabilities.

     Figure 4. Tornado Survivors receiving meals from the American Red
     Cross




     Source: FEMA

     The National Response Framework designates FEMA as the coordinator
     and a primary agency for ESF-6. At FEMA Headquarters, the Individual
     Assistance Division in the Response and Recovery Directorate has the
     lead nationally for ESF-6; the 10 FEMA Regions coordinate and
     implement the ESF-6 mission on disaster operations. ESF-6’s primary
     implementation actions are performed at the lowest possible
     organizational level: the FEMA Regional Response Coordination Centers
     and Joint Field Offices. However, the Individual Assistance Division at
     FEMA Headquarters is responsible for coordinating national-level issues,
     addressing Regional Response Coordination Centers’ requests for
     additional support teams, and addressing multiple requests for resources.
     The headquarters branch is also responsible for coordinating information
     on mass care, emergency assistance, housing, and human services for
     senior leaders, and activating and distributing information for national-
     level support agencies.




           Assessment of Federal Emergency Management Agency’s
 

           Emergency Support Function Roles and Responsibilities
 


                                  Page 23
 

Coordination With ESF Stakeholders

ESF-6 headquarters officials coordinate with other federal
agencies, state and local governments, and nonprofit and private
organizations prior to, during, and after a disaster. Headquarters
officials have created ongoing relationships with their partners
throughout all phases of disaster preparedness, response, and
recovery.

Prior to an incident, FEMA coordinates with its ESF-6 partners by
hosting or coordinating meetings and conference calls. They
participate in committees, task forces, and working groups to
engage in disaster coordination. ESF-6 headquarters officials also
host “brown bag” sessions to share information about new and
ongoing programs. They engage with voluntary organizations and
state representatives in training development focus groups and
course delivery. FEMA also maintains memorandums of
understanding with voluntary organizations and interagency
agreements with other support agencies.

When an incident occurs, ESF-6 headquarters officials contact and
activate support partners at the national level. They coordinate
with partners daily during an incident to identify support needs,
develop guidance, and address and resolve any issues. They also
deploy support teams to assist regions and partners.

After an incident, Individual Assistance officials at FEMA
headquarters host and contribute to after-action events related to
emergency assistance, housing, human services, and mass care.
They also participate in the development of Long-Term Recovery
Committees.

Although ESF-6 headquarters officials coordinate with their
partners, we are concerned that if a major disaster occurred in
today’s economy, ESF-6 efforts with supporting nonprofit and
private organizations (such as Voluntary Organizations Active in
Disasters and other voluntary agencies) may be limited because
these organizations may have staffing and funding resource
limitations, leaving the federal government to rely heavily on
mission assignments with other federal agencies to accomplish the
ESF-6 mission. FEMA should have coordinated national and
regional contingency and operational plans on how to handle an
incident if nonprofit and private partners cannot help in the
response efforts.


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 24

We are also concerned that FEMA’s Individual Assistance
headquarters capabilities to respond and provide program oversight
may be slowed because of ESF-6’s expansive scope of
responsibility. ESF-6 consists of mass care, emergency assistance,
housing, and human services, each of which has extensive
missions. FEMA should assess each component’s role to ensure
that the component responsibilities are coordinated within an
appropriate disaster assistance delivery sequence.

Operational Readiness

FEMA leadership and headquarters officials have taken steps to
achieve a high level of operational readiness through field level
support, multilevel readiness exercises, disaster information
updates, and new information systems.

Individual Assistance headquarters officials support organizational
activities by deploying subject matter experts. For example,
FEMA deployed trained headquarters Voluntary Agency Liaisons
to support field operations during hurricanes Gustav and Ike, the
Midwest floods and tornadoes, the California wildfires, and the
New Jersey floods. Deployed staff provided disaster survivor case
management, preliminary damage assessments, disaster response
and recovery training, and partner liaison services.

The ESF-6 Voluntary Agency Liaison has conducted ESF-6
specific readiness assessments, including regular strategic
conference calls and e-mails to update FEMA regional office staff
members on national partner capabilities and readiness, and to
discuss other ESF-6 topics. Similarly, the ESF-6 Voluntary
Agency Liaison regularly e-mails and conference calls agency
partners to request feedback, offer assistance, and share disaster-
related information.

To better prepare state, local, and tribal governments,
communities, and individuals to recover from disaster events,
Individual Assistance headquarters officials have developed new
information systems, such as the following:

     •	 Disasterassistance.gov is a comprehensive disaster resource
        website with information on current disasters, available aid,
        survivor application processing, and status tracking.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                       Page 25
 

     •	 FEMA’s Housing Portal is an online tool that consolidates
        housing listings from many different sources into a single
        searchable database. The goal of the tool is to match
        displaced individuals and families with places to live.

     •	 National Donations Management Network is a donations
        management system that allows state governments to
        efficiently capture offers of unsolicited donated goods and
        communicate these offers with the members of the state’s
        Voluntary Organizations Active in Disaster for possible
        accepting, processing, and delivery.

     •	 FEMA’s National Shelter System is a web-based planning
        and operational tool created to support federal, state, and
        local government agencies responsible for mass care and
        emergency assistance. It can be used to identify facilities’
        capabilities and capacities; create custom maps of those
        facilities in relation to evacuation routes, hazards, and
        critical infrastructure; and share sheltering and feeding
        activity information among emergency managers.

     •	 The National Emergency Family Registry and Locator
        System is an electronic tool developed to help disaster-
        separated family members to communicate with and locate
        each other. Family members can register for the national
        database over the phone or Internet and leave messages for
        family and friends, who can search the database to locate
        displaced persons. In conjunction with the National
        Emergency Family Registry and Locator System, the
        National Emergency Child Locator Center was established
        to locate children who have become separated from their
        parents or guardians during a disaster.

     •	 The Direct Assistance, Replacement Assistance
        Consideration tool is used to process disaster assistance
        applicants through the direct housing replacement process.
        The tool is designed to increase process transparency and
        enhance disaster survivor services.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                       Page 26
 

    •	 The Assurance Monitoring and Operations Status is a web-
       based tool used to track temporary housing units’ (e.g.,
       travel trailers and mobile homes) life cycles. The Indoor
       Air Quality testing program uses it to mitigate
       formaldehyde or other air quality issues associated with
       temporary housing units.

Although FEMA has developed new ESF-6 information tools that
increase its disaster response capabilities, we are concerned that
FEMA has not clearly linked its new tools to its missions. As a
result, state, local, and tribal governments, communities, and
individuals may not fully understand the universe of disaster
recovery tools.

Financial Management and Accountability

FEMA is fulfilling its ESF-6 financial management and
accountability responsibilities. Individual Assistance headquarters
officials have several funding mechanisms to provide disaster
survivors with mass care, housing, and human services. Under the
Stafford Act, FEMA may use mission assignments to other federal
agencies to support the ESF-6 mission. FEMA can also activate
standby Individual Assistance–Technical Assistance Contract
services to support the ESF-6 mission.

FEMA individual assistance funding is issued directly to individual
households. FEMA’s three National Processing Service Centers,
located in Maryland, Virginia, and Texas, are staffed by Individual
Assistance personnel who perform registration intake, conduct
damage verification inspections, determine applicant eligibility,
and disburse FEMA’s Individuals and Households Program funds
directly to disaster survivors.

Individual Assistance headquarters officials work closely with
FEMA’s Chief Procurement Office personnel to develop and
execute several pre-disaster Blanket Purchase Agreements and
Individual Assistance-Technical Assistance Contracts for various
goods and disaster assistance services. These agreements include
the following:

    •	 Contract to perform Indoor Air Quality Screening,
       including formaldehyde, mold, bio baseline, and
       environmental testing of all FEMA-acquired temporary
       housing units;


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 27

         •	 Contract to provide support for the National Donations
            Management Network;

         •	 Blanket Purchase Agreement to procure pre-packaged food
            and beverage supplies; and

         •	 Blanket Purchase Agreement for food carrier containers.

    Conclusion

    FEMA is prepared to fulfill its ESF-6 headquarters roles and
    responsibilities. FEMA hosts or coordinates meetings and
    conference calls with its stakeholders and has achieved a high level
    of operational readiness by providing field-level support, initiating
    multilevel readiness exercises and disaster information updates,
    and developing new information systems. FEMA is also
    enhancing its financial management efforts related to its ESF-6
    mission by developing new programs and tools.

    However, we are concerned that the Individual Assistance
    Division’s overall ability to respond to a disaster may be slowed
    because its responsibilities are broad. We are also concerned that
    the partnerships that FEMA has formed with nonprofits and private
    organizations may be impaired if they do not have resources to
    respond to an event. Finally, we are concerned that because
    FEMA has not linked its new ESF-6 disaster information tools
    with its missions, stakeholders may not clearly understand the
    universe of disaster recovery resource tools available.

Recommendations
    We recommend that the Deputy Assistant Administrator for
    Recovery:

    Recommendation #5: Reassess the structure and function of
    ESF-6 to determine whether each component’s responsibilities are
    coordinated within an appropriate disaster assistance delivery
    sequence.

    Recommendation #6: Develop coordinated national and regional
    contingency and operational plans on how to handle an event if
    nonprofit and private sector partners cannot assist with response
    efforts.


    Assessment of Federal Emergency Management Agency’s
 

    Emergency Support Function Roles and Responsibilities
 


                           Page 28

     Recommendation #7: Enhance the awareness of disaster
     assistance internet based resources to ensure that state, local, and
     tribal governments, communities and individuals clearly
     understand the universe of disaster recovery tools available.

Management Comments and OIG Analysis
     Recommendation #5: FEMA did not concur with our draft report
     recommendation of FEMA reassessing the structure and function
     of ESF-6 to determine whether each component’s responsibility is
     essential when responding to an event. FEMA said it recognizes
     that the scope of ESF-6 can be cumbersome at times; however,
     they believe that all ESF-6 components are essential. FEMA also
     said that eliminating any component of the ESF-6 mission could
     diminish or eliminate critical services available in ESF-6.

     We revised our recommendation to ensure FEMA reassesses the
     structure and function of ESF-6 to determine whether each
     component’s responsibilities are coordinated within an appropriate
     disaster assistance delivery sequence. We believe that performing
     this assessment will enhance FEMA’s capabilities with responding
     to and providing program oversight for ESF-6. FEMA concurred
     with the revised recommendation. This recommendation will
     remain resolved and open until we are provided evidence that steps
     are being taken to implement it.

     Recommendation #6: FEMA said that it needed further
     clarification in order to respond to this recommendation.
     Specifically, FEMA said that the term private partner was unclear.

     We revised our recommendation to clarify its intent by
     recommending that FEMA develop coordinated national and
     regional contingency and operational plans on how to handle an
     event if nonprofit and private sector partners cannot assist with
     response efforts. FEMA concurred with the revised
     recommendation. This recommendation will remain resolved and
     open until we are provided evidence that steps are being taken to
     implement it.

     Recommendation #7: FEMA said that it needed further
     clarification in order to respond to this recommendation.




    Assessment of Federal Emergency Management Agency’s
 

    Emergency Support Function Roles and Responsibilities
 


                           Page 29

            We revised our recommendation to clarify its intent by
            recommending that FEMA enhance the awareness of disaster
            assistance internet resources to ensure its stakeholders clearly
            understand the universe of disaster recovery tools available.
            FEMA concurred with the revised recommendation. This
            recommendation will remain resolved and open until we are
            provided evidence that steps are being taken to implement it.

ESF-7: Logistics Management and Resource Support
     ESF-7 Logistics Management and Resource Support provides centralized
     management for the National Logistics Coordinator and management of
     resource support requirements in support of federal, state, tribal, and local
     governments. It establishes a framework of internal and external logistics
     partners through increased collaboration in the planning, sourcing,
     acquisition, and utilization of resources. FEMA’s Logistics Management
     Directorate and the General Services Administration are the coordinators
     and primary agencies for ESF-7. FEMA’s Logistics Management
     Directorate provides a comprehensive national disaster logistics planning,
     management, and sustainment capability that harnesses the resources of
     federal logistics partners, key public and private stakeholders, and
     nongovernmental organizations to meet the needs of disaster victims and
     responders.

     Figure 5. Water and ice being distributed after Hurricane Ike




     Source: FEMA


            Assessment of Federal Emergency Management Agency’s
 

            Emergency Support Function Roles and Responsibilities
 


                                   Page 30
 

Coordination with ESF Stakeholders

FEMA is coordinating with its ESF-7 partners. Specifically, the
Logistics Management Directorate relies on and promotes
communication and collaboration with the General Services
Administration, ESF-7 support agencies, state and local
governments, nongovernmental organizations, and the private
sector. The Logistics Management Directorate has approached
coordination with the ESF stakeholders through a variety of
methods, such as communicating through liaisons, working groups,
new initiatives, and timely input and feedback. For example,
FEMA and the General Services Administration have collaborated
on the Transportation Management Initiative, which has helped
improve FEMA’s ability to provide rapid transportation support for
disaster response operations.

The national planning process and coordination involves the
Logistics Management Directorate Plans and Exercises Division,
which co-sponsors (with the General Services Administration) an
annual Logistics Summit for ESF-7 partners, Regional Logistics
Section Chiefs, and other internal FEMA partners from
Acquisition, Operations, Grants and Disaster Assistance. The
General Services Administration Liaison Officer also works with
the Logistics Management Directorate Plans and Exercises
Division to review, share, and vet contingency plans with other
ESF-7 support agencies.

The Logistics Management Directorate has worked with support
agencies to create multiple liaisons to support communication
between the agencies. The following Liaison Officer positions
were created to support ESF-7:

    •    The General Services Administration Liaison Officer
    •    The U.S. Northern Command Liaison Officer
    •    The U.S. Army Corps of Engineers Liaison Officer
    •    The Defense Logistics Agency Liaison Officer

The General Services Administration Liaison Officer position is
assigned full-time to the Logistics Management Directorate. This
officer works closely with other planning and exercise activities to
support operational plans, including catastrophic planning. The
Northern Command and Defense Logistics Agency Liaison
Officers are also assigned long-term to the Logistics Management
Directorate. The U.S. Army Corps of Engineers and Defense


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 31

Logistics Agency Liaison Officers are available for planning
support and immediate deployment to FEMA during an event.

The Logistics Management Directorate has worked with support
agencies to create an ESF support structure. The Logistics
Management Directorate conducts weekly logistics partner calls
during disaster and nondisaster periods. Call participants include
Regional Logistics Chiefs and key ESF-7 partners. Several
support agencies are also part of the Logistics Distribution
Management Strategy Working Group, which is responsible for
developing and disseminating policies and procedures in support of
the ESF-7 mission. The Working Group also analyzes and refines
the comprehensive distribution and supply chain management
strategy, and participates in after-action reviews and improvement
plan processes.

Coordination with states is the responsibility of the Office of
Protection and National Preparedness and FEMA Regional
Offices. Although ESF-7 does not have the lead role in the
coordination with state officials, the Logistics Management
Directorate has collaborated with Florida, Texas, and the state of
Washington to develop a comprehensive training program for
operating points of distribution. The Logistics Management
Directorate also embarked on an effort to disseminate the Logistics
Capabilities Assessment Tool. This tool was developed in
response to a congressional mandate to enhance state logistics
preparedness. Since March 2009, FEMA has briefed and trained
all 10 FEMA Regional Offices on the Logistics Capabilities
Assessment Tool.

To coordinate and collaborate with the private sector, the Logistics
Management Directorate relies heavily on guidance and direction
from the DHS Private Sector Office, which engages individual
businesses, trade associations, and other nongovernmental
organizations to foster dialogue with DHS. In 2008, the Logistics
Management Directorate established an agreement with FedEx to
allow use of FedEx facilities for Incident Support Base pre-staging
operations. The Logistics Management Directorate also
participates in industry day events hosted by the General Services
Administration. At these events, private sector vendors present
their products and services to FEMA subject matter experts.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                       Page 32
 

Operational Readiness

The Logistics Management Directorate’s operational readiness
efforts address its ESF-7 responsibilities. For example, the
Logistics Management Directorate Plans and Exercises Division
develops and provides logistics plans that detail Concept of
Operations for Logistics Management and resource supports to
achieve short- and long-term readiness requirements. The Division
also conducts planning for sustainment and future logistics
operations and planning assessments and analysis for domestic
emergencies and special events. The Logistics Management
Directorate has also identified required training, pre-positioned
disaster supplies, maintained agreements with ESF partners, and
implemented new technology to support response operations and
timely feedback.

The Logistics Management Directorate, FEMA’s Emergency
Management Institute, and the General Services Administration are
collaborating with the Army Logistics University and the
Department of Defense Joint Staff Logistics to develop a pilot
interagency logistics course. Entities represented in this initiative
include the U.S. Army North, U.S. Transportation Command, U.S.
Pacific Command, U.S. Army Corps of Engineers, ESF-6 Mass
Care Voluntary Agency Liaisons, and state and local governments.

The Logistics Management Directorate Plans and Exercises
Division hosted the 2010 Hurricane Concept of Resource Briefing.
The briefing provided a comprehensive review of logistical
readiness capabilities in hurricane-prone states and preparation for
this year’s hurricane season. The session was attended by FEMA
regions and partners, including the General Services
Administration, the Defense Logistics Agency, the U.S. Army
Corps of Engineers, the National Guard Bureau, and ESF-6. The
meeting also provided an opportunity for the FEMA regions to
provide a detailed description of the collaborative efforts between
the states and partners and the ongoing activities in place to ensure
a rapid logistical response to any threat or event.

To support disaster response, the Logistics Management
Directorate uses Initial Response Resources and interagency
agreements. Initial Response Resources are pre-positioned at areas
with high hurricane and earthquake risk, as well as other locations
in order to ensure that supplies are ready for transport. Pre-
positioned Initial Response Resources were delivered to Guam in
preparation for a typhoon threatening the Northern Mariana

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 33

Islands. In addition, FEMA uses interagency agreements to access
contracts held by other federal agencies. For example, FEMA has
interagency agreements with the Defense Logistics Agency and the
General Services Administration for a number of items, including
water and emergency meals.

The Logistics Management Directorate has developed a Logistics
Fly-Away Team consisting of key partners, such as the General
Services Administration and the Defense Logistics Agency. The
team analyzes the logistics operations supporting disasters, tests
revised processes and concepts, and gathers lessons learned in
order to make the adjustments to improve support functions. The
Logistics Fly-Away Team is designed to provide support to a Joint
Field Office, specifically in support of the Logistics Section
External Support Branch. This branch supports the external
operations mission that provides direct federal assistance to the
affected state(s).

The Logistics Management Directorate and the General Services
Administration conduct after-action reviews after each event.
Additionally, the Directorate and the General Services
Administration co-host an annual After Action Report Conference
to discuss the findings and disposition of identified issues.

The Logistics Management Directorate also has initiated the
Logistics Supply Chain Management System, previously referred
to as Total Asset Visibility. This system takes a comprehensive
approach to the national logistics supply chain that includes ESF
partners. The intent is to provide end-to-end supply management,
visibility, and situational awareness among all participants. Such
automated initiatives will help give visibility over critical partner
shipments for ESF-7 operations.

Financial Management and Accountability

The Logistics Management Directorate has executed contracts and
is prepared to manage mission assignments, interagency
agreements, and vendor-managed contracts to fulfill its ESF-7
financial management and accountability responsibilities.

The Logistics Management Directorate project officer serves as the
contracting officer’s technical representative for mission
assignments and ensures that established guidance for managing
mission assignments is followed. To expedite the delivery of
federal assistance, the Logistics Management Directorate has 15

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 34

pre-scripted mission assignments with 4 federal agencies. Mission
assignments include working with the Coast Guard to establish a
Federal Operational Staging Area to support operational response
to an incident, and working with the Department of Defense to
establish and operate retail fuel distribution points to support
disaster operations.

FEMA also maintains multiple interagency agreements negotiated
with the General Services Administration and the Defense
Logistics Agency and has negotiated vendor-managed contracts.
These agreements and contracts are activated in the event of an
incident to provide services as needed. Interagency agreements
and contracts that provide an enhanced logistics readiness
capability include the following:

    •	 Vehicle Maintenance Contract Supplies and Services
       Interagency Agreement
    •	 Transportation Services Interagency Agreement
    •	 Plastic Sheeting (Blue Roof) Blanket Purchase Agreement
    •	 Supplies and Services Interagency Agreement

Additionally, FEMA’s Logistics Property Management Division
has full responsibility for disaster property accountability and
conducts quarterly inventories of the top six disaster commodities
stored in FEMA distribution centers and other select pre-positioned
storage locations.

Conclusion

FEMA’s Logistics Management Directorate is actively engaged in
fulfilling its ESF-7 roles and responsibilities and has a robust
coordination network with ESF-7 stakeholders. FEMA and the
General Services Administration have also collaborated on the
Transportation Management Initiative, which has helped improve
FEMA’s ability to provide rapid transportation support for disaster
response operations.

The Logistics Management Directorate has made strides in
developing plans and exercises to improve operational readiness,
as well as training and developing personnel to respond to an
incident. Financially, the Logistics Management Directorate has
implemented interagency agreements with the U.S. Coast Guard
and the Department of Defense, has pre-negotiated contracts for



Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 35

                        commodities needed in a disaster, and is prepared to manage
                        mission assignments.

                        Yet, FEMA continues to face logistics challenges. In July 2010,4
                        and August 2009,5 we issued two reports that provided a detailed
                        look at the Logistics Management Directorate’s response
                        capabilities and FEMA’s sourcing process. In our July 2010
                        report, we concluded that FEMA should work with state partners
                        to identify and overcome logistical deficiencies. In our August
                        2009 report, we concluded that FEMA should integrate existing
                        FEMA systems to support single-point ordering and enhance
                        visibility over the sourcing process.

        ESF-9: Search and Rescue
                ESF-9 Search and Rescue is responsible for rapidly deploying components
                of the federal Search and Rescue Response System to provide specialized
                lifesaving assistance to state, tribal, and local authorities. The Search and
                Rescue Response System is composed of primary agencies that provide
                specialized expertise during incidents requiring a coordinated federal
                response. FEMA is both the coordinator and a primary agency for ESF-9.

                Figure 6. Urban Search and Rescue Task Force searches debris after
                Hurricane Ike




                Source: FEMA



4
  DHS-OIG, FEMA’s Logistics Management Process for Responding to Catastrophic Disasters, (OIG-10-
101), July 2010
5
  DHS-OIG, FEMA’s Sourcing for Disaster Response Goods and Services, (OIG-09-96), August 2009


                        Assessment of Federal Emergency Management Agency’s
 

                        Emergency Support Function Roles and Responsibilities
 


                                               Page 36
 

As the ESF-9 coordinator, FEMA has management oversight with ongoing
responsibilities throughout the preparedness, response, and recovery
phases of incident management. A revised draft ESF-9 Annex states that
FEMA activates ESF-9 when an incident is anticipated or occurs that may
result in a request for a unified search and rescue response. Once ESF-9 is
activated, FEMA will designate a lead primary agency that is appropriate
for the type of response needed. The lead primary agency will coordinate
the integration of federal search and rescue resources, and all ESF-9
agencies will provide support as required.

As a primary agency, FEMA oversees the National Urban Search and
Rescue Response System, which is built around a core of 28 Urban Search
and Rescue Task Forces staffed primarily by local fire department and
emergency services personnel who are highly trained and experienced in
urban search and rescue operations. FEMA’s responsibilities include (1)
developing national Urban Search and Rescue policy, (2) providing
planning guidance and coordination assistance, (3) standardizing task
force procedures, (4) evaluating task force operational readiness, (5)
funding special equipment and training requirements, and (6) reimbursing
task forces for authorized deployments to Stafford Act declaration sites.

       Coordination With ESF Stakeholders

       As the ESF-9 coordinator, FEMA, specifically the Urban Search
       and Rescue Program Office, coordinates the ESF-9 mission with
       federal primary and support agencies before, during, and after an
       incident. The National Search and Rescue Committee is a federal
       interagency committee formed to coordinate civil search and
       rescue matters. FEMA coordinates ESF-9 response planning,
       including catastrophic planning, and doctrine development with
       primary and support agencies through the committee. Meetings
       are held regularly, and both primary and support agencies
       participate. Most recently, the committee worked on the
       Catastrophic Incident Search and Rescue Addendum and the
       Inland Search and Rescue Addendum to the National Search and
       Rescue Manual. It also revised the National Response Framework
       ESF-9 Annex.

       Within FEMA, Urban Search and Rescue officials participate as
       subject matter experts in catastrophic planning efforts, such as the
       New Madrid Seismic Zone Catastrophic Earthquake Response
       Planning Project, planning for the southern California earthquakes,
       and planning in Puerto Rico and Hawaii. Officials also said that
       they coordinate ESF activities for critical infrastructure
       preparedness through these planning efforts. Furthermore, FEMA

      Assessment of Federal Emergency Management Agency’s
 

      Emergency Support Function Roles and Responsibilities
 


                             Page 37

is working with the National Geospatial-Intelligence Agency to
map transportation routes and the location of critical infrastructure
for the Urban Search and Rescue Task Forces.

When an incident occurs, Urban Search and Rescue officials said,
they send a team from the Program Office to the National
Response Coordination Center to offer strategic support to search
and rescue efforts. If it is a “notice” event, such as an approaching
hurricane, officials coordinate and share information with ESF-9
partners prior to the incident. For a “no-notice” event, such as an
earthquake, officials contact ESF-9 partners as soon as possible.
Officials also said that primary agencies will report any ongoing
response-related activities to FEMA for inclusion in ESF-9 daily
reports.

After an incident, Urban Search and Rescue officials said, they
contribute to after-action events related to an ESF-9 activation.
For example, FEMA has coordinated in the past with the U.S.
Coast Guard for an after-action review. Officials also said that
they coordinate with the Department of Justice to process workers’
compensation claims resulting from a search and rescue
deployment-related incident.

As the ESF-9 coordinator, FEMA is responsible for identifying and
maximizing use of private sector resources in response to an
incident. Coordination with the private sector is important because
the private sector owns 85% of the Nation’s critical infrastructure.
Urban Search and Rescue officials said that they work with
building owners during ESF-9 missions. For example, they
coordinated with owners to obtain plans for the World Trade
Center in New York City.

As an ESF-9 primary agency, FEMA must coordinate with state
officials, operations centers, and state agencies. When an incident
requires urban search and rescue resources, FEMA deploys Urban
Search and Rescue Task Forces and an Incident Support Team that
provides coordination and logistical support to the task forces.
There are three 21-member Incident Support Teams staffed by
FEMA Urban Search and Rescue officials, Urban Search and
Rescue Task Force representatives, and federal primary and
support agency officials. According to a task force member, the
Incident Support Team provides a critical link among the federal
government, state and local governments, and the task forces
during operations. The Incident Support Team must coordinate
with state officials to (1) keep them informed on the status of ESF-

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 38

9 resources and incident activities and (2) support ESF-9
integration into ongoing local urban search and rescue operations.
The Incident Support Team may also assign a liaison to the State
Emergency Operations Center.

Operational Readiness

FEMA is prepared to provide trained ESF-9 staff to fixed and field
facilities for an incident requiring urban search and rescue
resources. There are 28 FEMA-sponsored Urban Search and
Rescue Task Forces strategically located throughout the Nation. A
single task force has 210 task force members, who are required to
complete courses in the Urban Search and Rescue training
curriculum. FEMA confirms that task force members have met
training requirements through on-site Operational Readiness
Evaluations conducted by FEMA Urban Search and Rescue
officials and task force peers. FEMA also facilitates training
through an interagency agreement with the U.S. Army Corps of
Engineers, and in FY 2009 contributed $150,000 to support the
U.S. Army Corps of Engineers’ Urban Search and Rescue Training
Program.

FEMA has deployed the Urban Search and Rescue Task Forces
and Incident Support Teams in response to numerous incidents.
For Hurricane Katrina, FEMA pre-deployed seven task forces to
the region a day before landfall in New Orleans, but responders
were neither trained nor equipped to perform rescues in a flooded
environment, and not all of the federal government’s search and
rescue assets were integrated for a coordinated response. For
example, the Department of Interior has expertise in operating
watercraft and conducting search and rescue operations, but at the
time of Hurricane Katrina the department was not an ESF-9
partner. Therefore, its offers to deploy rescue boats during the
response never reached the operational level. If the Department of
Interior had been considered an ESF-9 primary or support agency,
then its water assets would likely have been integrated into
response operations. After Hurricane Katrina, this situation was
rectified by adding the Department of Interior’s National Park
Service as a primary agency. In spite of the problems, the Urban
Search and Rescue Task Forces rescued more than 6,500 people.
More recently, a task force was deployed to Michigan in response
to a tornado.

FEMA conducts periodic readiness assessments of Urban Search
and Rescue Task Forces to ensure that they are deployable. FEMA

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 39

requires that all 28 task forces conduct an annual self-evaluation on
operational, logistical, and management readiness. FEMA verifies
the self-evaluations through the on-site Operational Readiness
Evaluations. These evaluations occur every 3 years, and FEMA is
currently conducting the second cycle of evaluations. Urban
Search and Rescue officials said that for this cycle they have
evaluated 24 out of 28 task forces, and only 1 has been deemed
“non-deployable.” If a task force receives a low score in a
particular area, it is required to submit a corrective action plan, and
FEMA conducts a follow-up visit. Urban Search and Rescue
officials said that the remaining four evaluations should be
completed by September 2010.

FEMA has identified new equipment to respond to threats and
hazards, such as personal protection equipment that will allow the
task forces to operate safely within a water hazard or a weapons of
mass destruction environment. The National Urban Search and
Rescue Response System has a work group of subject matter
experts that conducts a logistics vetting process. If a task force has
identified new equipment that it believes is necessary, then the task
force presents that equipment to the work group for approval. If
the work group approves the equipment, then the request is
forwarded to FEMA for approval and inclusion in the Urban
Search and Rescue approved Equipment Cache List. FEMA tracks
whether the task forces have complete and functioning equipment
caches. FEMA has also identified the capabilities necessary for
the task forces and Incident Support Teams to respond to threats
and hazards and tracks whether the task forces have these
capabilities.

Urban Search and Rescue officials have planned for both short-
and long-term incidents. For example, they have a Hawaii
catastrophic disaster plan, a hurricane concept of operations plan,
and a ‘no-notice’ earthquake concept of operations plan. Officials
said that urban search and rescue operations generally last about a
week, but they have planned for long-term operations—Hurricane
Katrina operations lasted 6 weeks, with the focus going from
search and rescue to the recovery of deceased victims. When a
long-term operation is required, officials said they plan the
continuation of effort by rotating task forces.

Financial Management and Accountability

FEMA uses contracts to procure goods and services to support the
ESF-9 mission. For example, FEMA has executed contracts for

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 40

urban search and rescue training. Urban Search and Rescue
officials said they also have pre-incident standby contracts with
private industry for services and supplies required to support the
ESF-9 mission. These include contracts for catering services,
laundry services, and vehicle fuel. In addition, each Incident
Support Team includes a warranted federal contracting officer who
can execute purchases, rentals, and leases in the field. Historically,
these procurements have included heavy equipment services (e.g.,
cranes and backhoes), equipment maintenance and repair, facilities
leases, and supplies required to support and sustain urban search
and rescue operations, such as global positioning systems, toilet
paper, mosquito spray, maps, and dog food.

FEMA has in place measures to promote financial and property
accountability for ESF-9 activities. Urban Search and Rescue
officials said that they conduct technical assistance visits to the
Urban Search and Rescue Task Forces to review their finance
systems and their documentation on property, personnel, and
travel. Furthermore, all task forces are required to submit an
annual financial status report, which includes a final performance
narrative on use and disposition of equipment and the amount of
residual/excess funding. The task forces’ sponsoring agencies
must also have financial and accounting systems to ensure that
funds have been spent properly. Additionally, deployed task
forces are required to submit a detailed claim to FEMA for
reimbursement after the mission is completed. These claims go
through an established review process which determines cost
appropriateness prior to payment. To ensure property
accountability, all task forces must have an inventory system to
manage their equipment cache, and an accountable officer deploys
with the Incident Support Team.

Urban Search and Rescue officials use mission assignments as a
mechanism to call upon other departments and agencies to support
the ESF-9 mission. For example, they are prepared to issue
mission assignments to support ESF-9 operations with the National
Geospatial-Intelligence Agency for mapping and analysis, the
National Park Service for motorized boating crews, and the U.S.
Army Corps of Engineers for structural engineering support.

Conclusion

FEMA is fulfilling its ESF-9 roles and responsibilities. FEMA is
coordinating with federal primary and support agencies before an
incident, including catastrophic event planning, during an incident,

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 41

            and after an incident. FEMA is also coordinating with state and
            local governments as well as with the private sector.

            Operationally, FEMA is well positioned to provide trained staff to
            fixed and field facilities during an incident, as the Urban Search
            and Rescue Response System has nearly 6,000 members.
            Moreover, through periodic readiness assessments, FEMA can
            determine the deployment readiness of the Urban Search and
            Rescue Task Forces. FEMA has also identified new equipment
            and capabilities necessary for an effective response. In recent
            years, FEMA has successfully deployed ESF-9 resources.

            FEMA has measures in place to ensure financial and property
            accountability for ESF-9 activities. Furthermore, FEMA has
            executed contracts for urban search and rescue training and
            developed pre-scripted mission assignments to support ESF-9
            operations.

     Recommendations
            We recommend that the Supervisory Program Specialist for the
            Urban Search and Rescue Branch:

            Recommendation #8: Complete Operational Readiness
            Evaluations for the Urban Search and Rescue Task Forces that
            have yet to be evaluated during this evaluation cycle.

     Management Comments and OIG Analysis
            Recommendation #8: FEMA concurred with this recommendation
            and said that it has completed on site Operational Readiness
            Evaluations for all 28 National Urban Search and Rescue Task
            Forces.

            We consider this recommendation resolved because steps have
            been taken to implement it; however, it will remain open until
            evidence is provided that Operational Readiness Evaluations of the
            four remaining National Urban Search and Rescue Task Forces
            were completed.

ESF-14: Long-Term Community Recovery
     ESF-14 Long-Term Community Recovery is a non-funding entity within
     FEMA’s Recovery Directorate that coordinates federal support for state,


           Assessment of Federal Emergency Management Agency’s

           Emergency Support Function Roles and Responsibilities


                                  Page 42

tribal, regional, and local governments, nongovernmental organizations,
and the private sector to enable community recovery from the long-term
consequences of extraordinary disasters.

Figure 7. Mississippi cottage, created as part of FEMA’s Long-Term
Community Recovery’s Alternative Housing Pilot Program




Source: FEMA

The National Response Framework designates FEMA as the coordinator
and primary agency for ESF-14. The goal of ESF-14 is to provide support
during the first 3 to 9 months of recovery; it is not designed to replace
state and local authority and responsibility for long-term recovery. The
ESF-14 mission is complete when all potential resources and analyses
have been identified, coordinated, and given to disaster-affected state and
local communities. Although ESF-14 activities are coordinated with
federal and state partners throughout all phases of a disaster, its primary
role takes place at the beginning of the recovery effort.

ESF-14 may be deployed under the following scenarios:

   •	 A Federal Coordinating Officer in charge of a presidentially
      declared disaster may request ESF-14 services;
   •	 A State Coordinating Officer may request ESF-14 services; or
   •	 The National Response Coordination Center may activate ESF-14
      in disasters with potential long-term recovery issues.

       Coordination With ESF Stakeholders

       FEMA coordinates with its federal, state, local, nongovernmental
       organization, and private sector partners prior to, during, and after


      Assessment of Federal Emergency Management Agency’s
 

      Emergency Support Function Roles and Responsibilities
 


                             Page 43

a disaster. As a resource coordinator, FEMA does not have the
clear authority to direct ESF-14 partners to provide recovery
resources when a disaster strikes since ESF-14 partner activities
are not emergency work as defined in 44 Code of Federal
Regulations 206.201 (b).

According to FEMA officials, they coordinate ESF-14 activities
with federal and state partners throughout all phases of a disaster.
During a disaster, Long-Term Community Recovery headquarters
and field officials participate in interagency meetings to assess and
promote interagency coordination at the designated Joint Field
Office. Long-Term Community Recovery headquarters and field
officials also provide a forum for multiple federal, state, and local
stakeholders to discuss and develop long-term community
recovery plans and activities. All disaster recovery efforts are
guided by state and local disaster priorities.

Long-Term Community Recovery headquarters officials provided
the following examples to demonstrate ESF-14 coordination:

    •	 Long-Term Community Recovery officials worked with
       Texas and partnering federal agencies to address the
       recovery needs of the most heavily impacted communities
       following Hurricane Ike. Long-Term Community
       Recovery officials facilitated multiple interagency working
       groups, creating a forum for sharing information among
       government agencies, nonprofits, universities, associations,
       and private industry. Results of this work include the
       Hurricane Ike Impact Assessment. The joint analysis and
       the shared information helped recovery partners prioritize
       and direct their support to recovery efforts. Relationships
       were established across multiple sectors, making it easier
       for recovery partners to address challenges.

    •	 Through interagency meetings in 2008 and 2009, Long-
       Term Community Recovery officials and the state of Iowa
       identified federal funding sources available to support the
       state’s desire to utilize smart growth concepts in rebuilding
       efforts, including considerations for economic growth,
       public health, and quality of life. As a result of the
       interagency coordination that took place during these
       meetings, FEMA, Iowa’s recovery office, the Iowa
       Department of Economic Development, and U.S.
       Department of Agriculture partnered with the


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 44

         Environmental Protection Agency’s Smart Growth program
         to offer smart growth support to rebuilding efforts of five
         communities.

FEMA’s coordination efforts with other federal agencies,
voluntary agencies, and private sector contractors aligned with the
guidance stated in the National Response Framework. However,
Long Term Community Recovery headquarters officials
emphasized that they do not have the authority under the National
Response Framework to direct ESF-14 partners to provide
recovery resources. FEMA’s authority to direct federal agencies
under other ESFs is based on provisions that support state and
local governments’ emergency work through mission assignments.
Additionally, Long-Term Community Recovery headquarters
officials do not have clearly defined procedures to identify and
deploy needed recovery services to disaster affected communities
through its ESF-14 partners.

Operational Readiness

ESF-14 operational readiness efforts, which include staff hiring
and training, are an initial step toward developing comprehensive
disaster operational readiness; however, without properly held
long-term community recovery exercises, ESF-14 will not be
prepared to provide long-term community recovery activities after
a major disaster. Long-Term Community Recovery headquarters
officials coordinate with ESF 3-Public Works and Engineering;
ESF 6-Mass Care, Emergency Assistance, Housing and Human
Services; ESF-11 Agriculture and Natural Resources; DHS’ Office
of Infrastructure Protection; and FEMA’s Public Assistance and
Mitigation Programs to ensure a fluid transition between short-
term and long-term disaster recovery issues.

FEMA augmented its disaster deployment capability through
strategic hiring and increasing the number of disaster reservist staff
with long-term community development experience. In 2009,
FEMA initiated the development of a long-term community
development disaster assistance employee cadre to augment its
disaster recovery capability. Long-Term Community Recovery
headquarters officials have taken community development training
and provide similar training to FEMA regional and disaster
assistance employees. Long-Term Community Recovery
headquarters officials, along with other federal agencies, voluntary
agencies, and private sector contractors, prepare disaster after-


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 45

action reports to capture lessons learned and identify opportunities
for program and process improvements.

ESF-14 readiness may be limited because FEMA has not
conducted any long-term community recovery exercises. Long-
Term Community Recovery headquarters officials said that the
only post-disaster exercise within the federal government was
conducted in 2009 by the Environmental Protection Agency. The
Environmental Protection Agency’s Liberty RadEx was a
multijurisdictional, recovery-based, post-emergency exercise that
focused on the response and recovery efforts following a chemical
attack at an urban federal building. The results of this exercise are
not available and have not been assessed at the time of this report.

Financial Management and Accountability

FEMA adequately fulfills its ESF-14 financial management and
accountability responsibilities. ESF-14 is not a funding entity, but
facilitates the identification, coordination, and use of resources to
support long-term recovery. However, Long-Term Community
Recovery headquarters officials provide recovery coordinating
activities through pre-scripted and post-event mission assignments
with the Environmental Protection Agency, the Department of
Housing and Urban Development, the Department of Agriculture,
the Department of Commerce’s Economic Development
Administration, and the Department of Transportation.

Long-Term Community Recovery officials work with technical
support contractors. FEMA recently awarded a contract to
Coordination and Planning Partners to serve as a dedicated long-
term recovery service provider. In the past, FEMA has issued
ESF-14 task orders under FEMA’s Public and Individual
Assistance–Technical Assistance Contracts. For example, task
orders were issued with some companies for long-term recovery
services, program development, and post-event technical recovery
support. Additionally, FEMA has contracted with another entity to
support an ESF-14 Evaluation Tool.

Conclusion

FEMA is generally capable of fulfilling its ESF-14 roles and
responsibilities. However, in a large-scale disaster, FEMA’s
ability to assist state and local communities in providing long-term
recovery services may be limited. ESF-14 Long-Term Community
Recovery is a non-funding coordinating entity that cannot compel

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 46

     federal agencies to provide disaster recovery support through the
     use of direct emergency work mission assignments. Additionally,
     FEMA does not have procedures to identify and deploy needed
     recovery services to disaster affected communities and has not
     assessed the abilities of its ESF-14 partners to respond to a
     disaster. Furthermore, FEMA does not conduct adequate long-
     term community recovery exercises. Without regularly scheduled
     exercises to ensure that Long-Term Community Recovery team
     members are prepared, ESF-14 will not be fully capable of
     providing recovery efforts to disaster-affected states and
     communities.

Recommendations
     We recommend that the Deputy Assistant Administrator for the
     Recovery Directorate:

     Recommendation #9: Develop deployment procedures to assist
     ESF-14 officials to identify and deploy needed recovery services to
     disaster affected communities through its ESF-14 partners.

     Recommendation #10: Schedule regular ESF-14 exercises and
     establish outcome metrics for these exercises.

Management Comments and OIG Analysis
     Recommendation #9: FEMA concurred with this recommendation
     and said that partner agencies will be expected to clearly identify
     their programs that contribute to recovery services and identify
     agency personnel with the necessary qualifications to participate in
     long-term community recovery assistance efforts. FEMA also said
     that this recommendation will be integrated into a general
     procedure for deployment of ESF-14 or successor efforts under the
     National Disaster Recovery Framework.

     We consider this recommendation resolved because steps are being
     taken to implement it; however, it will remain open until evidence
     is provided that FEMA has developed deployment procedures for
     identifying and deploying recovery services to disaster-affected
     communities through its ESF-14 partners.

     Recommendation #10: FEMA concurred with this
     recommendation and said that it has been working to include ESF-
     14 Long Term Recovery in recent exercises. FEMA also said that


    Assessment of Federal Emergency Management Agency’s
 

    Emergency Support Function Roles and Responsibilities
 


                           Page 47

            upon publication of the National Disaster Recovery Framework,
            additional efforts will be made to develop national doctrine and
            expectations for all levels of long-term recovery planning that will
            be useful in developing long-term recovery exercises.

            We consider this recommendation resolved because steps are being
            taken to implement it; however, it will remain open until evidence
            is provided that FEMA is scheduling ESF-14 exercises and
            establishing outcome metrics for these exercises.

ESF-15: External Affairs
     Providing timely lifesaving information before, during, and after major
     incidents is a critical function of government and a priority for DHS and
     FEMA. Directed by the DHS Assistant Secretary for Public Affairs, ESF-
     15 is designed to ensure that sufficient federal communication resources
     are assigned during an incident that requires a coordinated federal
     response in order to provide accurate, coordinated, and timely information
     to affected audiences, including governments, media, the private sector,
     and the public. ESF-15 integrates public affairs, congressional affairs,
     intergovernmental affairs (state, tribal, and local coordination), community
     relations, and the private sector under the coordinating support of external
     affairs.

     Figure 8. Administrator Fugate speaks at community press
     conference in Devils Lake, North Dakota




     Source: FEMA




            Assessment of Federal Emergency Management Agency’s

            Emergency Support Function Roles and Responsibilities


                                   Page 48

                  FEMA has been designated as the primary agency to orchestrate federal
                  actions to support state, tribal, and local incident management elements for
                  ESF-15. DHS is the coordinating agency and is responsible for ESF-15
                  management oversight. ESF-15 activities are implemented in
                  coordination with the DHS Office of Public Affairs and components of the
                  National Operations Center and Domestic Readiness Group.6

                            Coordination With ESF Stakeholders

                            Since Hurricane Katrina, FEMA has enhanced its capabilities to
                            rapidly engage federal, state, and local authorities, and the private
                            sector in order to coordinate, develop, and disseminate consistent
                            and sustained public information and instructions during an
                            incident requiring a coordinated federal response. Additionally,
                            FEMA uses a collaborative process to develop and execute
                            communications plans that include program and support offices,
                            FEMA’s 10 Regional Offices, and the Office of External Affairs.

                            DHS’ Office of Public Affairs and FEMA’s Office of External
                            Affairs use the National Incident Communications Conference
                            Line before, during, and after an incident to coordinate and
                            implement the public message for a federal response to disasters
                            and emergency declarations. The National Joint Information
                            Center, operated by DHS’ Office of Public Affairs, is the central
                            point for coordination of incident information, public affairs
                            activities, and media access to information. Furthermore, FEMA’s
                            Office of External Affairs compiles facts daily to update
                            information on key federal efforts by responding agencies, key
                            messages, essential statistics, and talking points about a disaster or
                            emergency.

                            Along with the National Incident Communications Conference
                            Line, DHS and FEMA engage their state and private sector
                            partners with similar communications, the State Incident
                            Communication Conference Line and the Private Sector
                            Communication Conference Line. The purpose of the State
                            Incident and Private Sector Communication Conference Lines is to
                            enable federal-to-state communication and coordination and to
                            share federal incident information with appropriate private sector
                            and critical infrastructure sources. Additionally, FEMA holds an
                            annual meeting with state governors’ Principal Information

6
  The Domestic Readiness Group is a White House led structure facilitating a comprehensive, integrated, and
coordinated approach to domestic incident management. The Domestic Readiness Group convenes on a regular basis
to develop and coordinate preparedness, response, and incident management policy.


                           Assessment of Federal Emergency Management Agency’s
 

                           Emergency Support Function Roles and Responsibilities
 


                                                    Page 49
 

Officers and states’ Homeland Security Principal Information
Officers to coordinate prevention, protection, response, and
recovery communications for the public.

Besides developing the Private Sector Communication Conference
Line, DHS and FEMA have reached out to the public sector in
other ways. In September 2008, during the response to Hurricane
Gustav, ESF-15 reached out to Entergy Power to participate in
incident management briefings so that Governor Jindal of
Louisiana could inform the public of power restoration efforts. In
November 2009, Administrator Fugate delivered the keynote
address at an event sponsored by communication industry leaders
(such as Google, Microsoft, and Yahoo!), which built on National
Aeronautics and Space Administration and World Bank efforts to
bring together disaster relief experts and software engineers in
order to identify key challenges and develop solutions for disaster
relief.

The most important coordination effort among White House Office
of Communications, DHS, FEMA, and ESF-15 support agencies
was the creation of the Domestic Communication Strategy, a
dynamic, evolving strategy that includes federal department and
agency options and actions that can be employed in response to a
credible threat or “no-notice” incident. The strategy is adaptable
and can be adjusted as necessary to support emergent
communication planning efforts, particularly during the pre-
incident phase. After a disaster, the Domestic Communication
Strategy will evolve through after-action reports and lessons
learned.

Operational Readiness

FEMA continues to make strides with its ESF-15 operational
readiness efforts. Specifically, FEMA and numerous federal
agencies worked closely with DHS’ Office of Public Affairs to
update the ESF-15 Standard Operating Procedures in August 2009,
and implemented corrective actions to address incident
coordination concerns identified during the TOPOFF 4 exercise.
In addition, following the implementation of the formalized
mandatory credentialing initiative, FEMA developed a
credentialing plan for 46 positions held by employees who deploy
to disaster sites. DHS and FEMA have also embraced innovative
technologies to disseminate accurate and timely information to the
public.


Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 50

The Department of Defense—specifically, the U.S. Army Corps of
Engineers—is identified in the ESF-15 Standard Operating
Procedures as a support agency capable of deploying a public
affairs officer, but it is not listed as a support agency in the current
version of the National Response Framework. The U.S. Army
Corps of Engineers supports ESF-15 activities by deploying a
public affairs officer to provide external affairs support, to include
pre-incident and post-incident assessments of public works and
infrastructure as well as recovery efforts. This includes publicizing
the availability of ice and water, debris removal, power, temporary
housing demolition, logistical distribution points, and other related
information for the survivor community and other audiences.
When the National Response Framework is updated, FEMA needs
to include the U.S. Army Corps of Engineers with the other
support agencies to ensure that stakeholders and the public are
aware of the U.S. Army Corps of Engineers’ ESF-15 role and
responsibilities.

ESF-15 capabilities have been enhanced by testing and proving
incident communications methods and operations, and identifying
areas needing improvement, through national level exercises. For
example, TOPOFF 4 tested the effectiveness of integrating the
private sector and critical infrastructure and key resources public
information offices into the National Joint Information Center and
field centers. Most important, it revealed that ESF-15 needs to
refine and improve the federal-state-local strategic communication
flow within the National Joint Information Center structure. DHS
and FEMA recognize that and other areas of concern require
follow on discussions and attention for improvement.

In January 2009, ESF-15 began implementing a mandatory,
agency-wide credentialing initiative to ensure that deployed
employees are qualified to perform specific duties in response to a
disaster. ESF-15 has developed a credentialing plan for 46
external affairs positions. The external affairs cadre is typed and
credentialed at four levels: trainee, basically qualified, fully
qualified, and expert. The goal is to have 85% of the external
affairs cadre attain basically qualified credentialing standards and
15% attain fully qualified within the first year.

FEMA has adopted several recent technologies to optimize the
dissemination of incident response information to the public.
FEMA uses nationwide social media sites such as Facebook,
YouTube, and Twitter to provide information related to disaster
preparedness, response and recovery. FEMA has also procured

Assessment of Federal Emergency Management Agency’s

Emergency Support Function Roles and Responsibilities


                       Page 51

three Emergency Communication Kits. These kits are the size of a
medium suitcase and can be carried by a single person, so they are
deployable anywhere people can reside. These kits are specialized
units with the capability to connect to remote resources while in
the field under adverse circumstances. The user can establish
satellite or cellular communications that can be used to set up a
mobile office with a scanner, printer, webcam, and laptop. Other
key technological updates include Deployable Satellite Uplink
Units and a Ready Room, which allows full connectivity for 12
users to field mobile devices.

Financial Management and Accountability

Contracts and mission assignments have been particularly valuable
to advancing the ESF-15 mission. Through limited English
proficiency and special needs communications contracts, FEMA is
able to provide stakeholders involved with response and recovery
an array of services, including language translation and
interpretation. During the North Dakota floods in 2009, FEMA
provided translation in Korean, Spanish, Vietnamese and other
languages for disaster survivors with limited English proficiency.
FEMA also provided special needs communication for American
Sign Language and Braille. Such contracts allow FEMA to
provide a valuable media service to individuals who do not speak
English as a first language or who require special needs
communication. The Post Katrina Emergency Management
Reform Act requires FEMA to ensure that information made
available to individuals affected by a major disaster or emergency
is available in formats that can be understood by individuals with
disabilities and special needs.

Additionally, FEMA has issued contracts for media monitoring,
analysis and metrics services. The purpose of these services is to
search terms related to emergency management, gauge the tone of
the media, and identify audiences reached and the coverage
equivalent in terms of positioning and advertising dollars based on
industry rate cards. FEMA deploys Media Analysis Specialists
and managers to ensure financial accountability by reviewing
media analysis reports for accuracy and content.

FEMA also uses pre-scripted mission assignments directed to other
federal departments and agencies to augment ESF-15 missions
during a disaster or emergency. FEMA officials said that they
have executed ESF-15 mission assignments with 15 other federal
partners. For example, FEMA mission-assigned the

Assessment of Federal Emergency Management Agency’s
Emergency Support Function Roles and Responsibilities

                      Page 52
Environmental Protection Agency during the response to
Hurricane Ike to deploy an environmental subject matter expert.
FEMA believes using pre-scripted mission assignments allows
federal resources to deploy quicker and standardizes the process of
developing the mission assignments.

Conclusion

FEMA has greatly enhanced its capabilities over the past several
years to fulfill its ESF-15 roles and responsibilities. Specifically,
DHS and FEMA have developed instruments to promptly mobilize
federal, state, and local authorities in order to coordinate, develop,
and disseminate a consistent and sustained public message during
an incident.

DHS and FEMA operational readiness efforts continue to be
enhanced, as evidenced by the August 2009 update of ESF-15
Standard Operating Procedures and participation in the TOPOFF 4
exercise. Additionally, following the implementation of the
mandatory credentialing initiative, ESF-15 developed a
credentialing plan for more than 45 external affairs positions that
are regularly deployed to disaster sites.

FEMA has also embraced emerging technologies to disseminate
accurate and timely information to the public through a variety of
methods. Such methods include social media sites, Emergency
Communication Kits, and a Ready Room, which allows full
connectivity for 12 users to field mobile devices.

FEMA uses contracts and pre-scripted mission assignments to help
publicize accurate and appropriate information. ESF-15 has pre-
disaster contracts in place to provide limited English proficiency
and special needs communications, and media monitoring. FEMA
also has executed ESF-15 mission assignments with federal
partners for major incidents, such as deploying subject matter
experts during the response to Hurricane Ike.




Assessment of Federal Emergency Management Agency’s
 

Emergency Support Function Roles and Responsibilities
 


                       Page 53
 

Recommendations
     We recommend that the Director for External Affairs:

     Recommendation #11: Collaborate with the FEMA Office of
     Protection and National Preparedness to ensure that all federal
     agencies and departments with a role in ESF-15 activities are
     properly included in the National Response Framework.

Management Comments and OIG Analysis
     Recommendation #11: FEMA concurred with this
     recommendation and said that it will ensure that the appropriate
     federal agencies and departments having a role in ESF-15 are
     included in the revised version of the National Response
     Framework. FEMA also said that its External Affairs office will
     coordinate with DHS – Office of Public Affairs to support and
     ensure all appropriate federal agencies and departments with a role
     in ESF-15 are closely coordinated.

     We consider this recommendation resolved because steps are being
     taken to implement it; however, it will remain open until evidence
     is provided that it has been fully implemented.




    Assessment of Federal Emergency Management Agency’s
 

    Emergency Support Function Roles and Responsibilities
 


                           Page 54
 

Appendix A
Purpose, Scope, and Methodology

                   The objective of our review was to determine the extent to which
                   the Federal Emergency Management Agency (FEMA) is prepared
                   to fulfill its Emergency Support Function (ESF) roles and
                   responsibilities under the National Response Framework. We
                   focused our review on those ESF Annexes in which FEMA is a
                   coordinator, a primary agency, or both.

                   To conduct fieldwork we used the Inspection Guide “An IG’s
                   Guide for Assessing Federal Response Capabilities” that the
                   Council of the Inspectors General on Integrity and Efficiency
                   developed. This inspection guide is being piloted by our office and
                   other OIGs. We interviewed DHS and FEMA officials and
                   examined the National Response Framework and its ESF annexes,
                   as well as documentation relating to coordination with ESF
                   stakeholders, federal planning initiatives, operational readiness,
                   and financial management and accountability.

                   We acknowledge the cooperation and courtesies extended to our
                   team during this review. We conducted this review between
                   November 2009 and June 2010 under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                  Assessment of Federal Emergency Management Agency’s
 

                  Emergency Support Function Roles and Responsibilities
 


                                         Page 55
 

Appendix B
Management Comments to the Draft Report


                                                                               1_... I,.,..,,_elll_s...fiI).'
                                                                               _   {" 'IoIat, Sl!.

                                                                               " ......... I)(":»I'~




          MEMORANDUM FOR:               Malt Jad;lcki
                                        Assistant lnspc<:tor Gencral
                                        Office of Emcrgency Managcmcnt Ovcrsight
                                        Office of InspL'ClOr General

          FROM:                          D~vid J. Kaufman;rU ---
                                        Director             IJ-""'--
                                        Officc of Policy and Prognun Analysis

          SUBJ£cr:                      Comments on OIG Dmft Report, Auessmen! of Federal
                                        Emergency ManagenH,'nl Agency s Emergency SlIpporl
                                        Function Roles ami Responsibilities

          lbank you for the opportunity to review and comment on thc Office of Inspeaor
          General's (OIG's) subject dr.lft audit report. As tnc Federal Emergency Managanent
          Agency (FEMA) works toward refining its progrwns. tnc OIG's independent llIUllysis of
          program performance greatly benefitS our ability 10 continuously improve our activities.
          Technical comments h1l\'c been submitted under 5Cpar,l1e CO\'CT_

          The following arc comments regarding the audit's obsL'TVations and condusions which
          are organized below by the sections of your dmft report:

          EXCl::uljvc Summary and Results of Revjew

          With respl:(:tto thc asscrtion that Ihere was lillie c"idence that supporr "gel/cies are
          regu/"rly ineluded in pfmming meetings forml J;:mcrgelJey Support /;lIIlction il!i,fSioll
          FEMA Tt:commends thalthc languagc in thcse st'Clions be rcvised to refle<:t FEMA's
          incrcased proactivc cngagement. and succ<.'Ss(ul partnership wilh Emergency Support
          Function (ESF) agencies. FEMA has invcsted suhstanlialtimc in mCCling with the ESF
          ag<''Ilcics in both group lmd one-on-onc m<.'Ctings to discu~ disaster response roles and
          responsibilities: address issues relating to functional and opcmtional procedures and
          assignments; re'o'iew capabilities: and providc additional clarification where needed, The
          meetings ha\"C ensured Ihat ESF agencies support critical planning activitics, and can
          maintain response. situational awareness, and common operating picture capabilities.
          FEMA routindy meets with its National· and Regional-level partners lhrough tnc




                                                                              .......r......~




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                      Page 56
 

Appendix B
Management Comments to the Draft Report




          Plge2

          luspices of the Emergency Support Functions Leadership Group (ESFLG) and the
          Regional Inten.gency Steering Conuninoes (R1SCs). In fact, the priorities in the FEMA
          Administrator's {ntMt are to "build unity ofeffort among the entire emergency
          management team" and "work with our partners to address the most significant risks."
          FEMA has been reinvigorating partDc:rships It alllevds and specifically has rc-c:ngaged
          the members of the ESFLG to integrate the role of tile ESFs and RISCs more fully into
          the disasler response structure, improving interagency coordination and facilitating
          disaster response opentions. In addition to developing information sharing processes and
          requirements and formalizing relltionships. I new ESFLG chatter has been drafted and is
          in the final stages of review.

          FEMA also coordinates with ESF partners in developing strategic all·hazards, time-
          sequmced plans of preparedness, response IctiOns, and decision miling points. The
          objective ofthc::se ongoing one-on-one meetings is to bolster apentional readiness and
          ensure that the ESFs have the capability to maintain comprehensive situational
          awarc:ncss, proper coordination, and resourceIaction lnIcting visibility dwing an incident.
          Video-Teleoonfercnces (VICs) can also be held to coordinate and resolve any nwnber of
          preparedness., response, and recovery issues. VICs are highlighted as a success story
          related to information sharing among FEMA and its Federal Partners for the DHS
          Infonnation Sharing and Governance Board.

          FEMA routinely convenes multi-agency VICs and conference calls involving the
          ESFLG, FEMA Regional staff, and incident-specific command and operations t:erltc:rs at
          the Federal and State levels upon receipt ofactionable warnings. At these events. basic
          incident-specific preparedness, response. and initial recovery actions are introduced,
          coordinated, and synchronized in prepanltion for possible response. 11lrough the
          experiences and lessons learned during disaster cycles, FEMA can note areas of
          improvement and focus resources and capabilities appropriately on those regions and
          states that may need assistance.

          In another example, FEMA Headquarters staff and regional staff have been working
          closely with the ESF departments and agencies to develop, enhance, and revise Pre-
          Scripted Mission Assignments (PSMA) to ensure that they understand their roles,
          responsibilities and requirements associated with developing and implementing the
          PSMAs. PSMAs arc a mechanism through which Federal agencies, departments, and
          organizations can come to agreement in advance of an event in order to provide
          assistance to state and local governments during a disaster.

          FEMA is now convening ESFLG meetings no less frequently than monthly. Agency
          representatives are expected to represent their agency's National Response Framework
          (NRF) function as well as their own department or agency. ESFLG member.; are
          enoouraged to invite their supporting agencies to the ESFLG meetings. If the supporting
          agencies are not able to anend, it is the responsibility ofESFLG members to disseminate
          information shared or decisions made at the meetings with them.




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                   Page 57
 

Appendix B
Management Comments to the Draft Report




          Page 3



         With respect to the statement in the draft report on page 23, Allhough ESF-6
         headquarter: official: coordinate with their partners, we are concerned that ifa major
         dislUter occurred in today': economy, ESF-6 efforl: with :upporling nonprofit and
         private organizations may be limited because these organizations may have staffing and
         funding resource limitations, leaving the federal government to rely heavily on mission
         assignment: with otherfederal agencies (OFA) 10 accompli:h the ESF-6 mi::ion. FEMA
         :hould have contingency plans on how to handle an incident if nonprofit and private
         partner: cannot help in the response effort:, FEMA believes the term ''private
         organizations" is unclear and needs clarification. Moreover, the conclusion incorrectly
         suggests that FEMA has not established robust contingency plans to address potential
         shortfalls in the Voluntary Agency response community. The opposite is actually true.

          FEMA has well-established contingency plans in place at this lime to address shortfalls
          when local, State, or Voluntary Agencies are not able to address response needs. FEMA
          regions have established plans that include contingencies based on use of Mission
          Assignment, Blanket Purchase order, or Technical Assistance Contract activation.
          Regions have developed these plans with their State and Voluntary Agency partners so
          that this contingency is well understood; FEMA Headquarters provides the same
          planning and coordination with Voluntary Agencies at the National level.

          In the event that a non-governmental organization, supporting a State, needs assistance
          with resources or services, the State will submit a request to FEMA through the Action
          Request Form process and after validation and approval, FEMA will meet those needs
          through one ofits many sourcing mechanisms, This includes procurement of Durable
          Medical Equipment, Consumable Medical Supplies, food product commodities, shelter
          support items, infant and toddler supplies, and household pet supplies.

          Ifsheltering and shelter staffresou~ are requested, those needs may be met by utilizing
          the Mission Assignment process to request personnel through one of our federal partners.
          such as the Corporation for National and Community Services (including AmeriCorps).
          FEMA's Individual Assistance Technical Assistance Contracts (IA-TACs) may also be
          tapped for tum-key sheller operation and management. The IA-TACs may also be used to
          support or augment feeding missions. warehousing, and distribution ofemergency
          supplies, FEMA 's support contractors have the capacity to shelter over 350,000
          survivors per day and serve over two million meals per day.

          Also on page 23, the following paragraph is incorrect: We are abo concerned that
          FEMA ': Individual A::istance headquarter: capabilitie: to respond and provide
          program oversight may be :lowed because ofESF-6 's expamive scope ofre:pomibility.
          ESF-6 comi:t: ofmas: care, emergency as:i:tance, housing, and human :ervices, each of
          which has extemive mi:siom. FEMA should assess each component's role to emure that
          the component's respomibjfity i: essential when responding to an incident.




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                   Page 58
 

Appendix B
Management Comments to the Draft Report




          Page 4

          FEMA recognizes that coordination ofESF-6 can be challenging at times; however, we
          do not agree that any component part ofESF·6 is non-essential. FEMA coordinates the
          many parts ofESF-6 from response through recovery, ensuring that individuals and
          families have access to the spectrum of federal, State, voluntary agency, and private
          sector assistance. Eliminating any single component of the ESF-6 mission could
          diminish or eliminate the crilical services available to disaster survivors, from sheltering
          and feeding through case management and interim housing. As an alternative to the
          DIG's proposed recommendation, DIG could recommend that FEMA continue 10
          enhance the coordination ofESF-6 through national exercises and training with their
          ESF-6 support agencies.

          With respect to the Operational Readiness discussion concerning ESF-6, this section does
          not mention the multi-million dollar readiness contracts that support Housing, Mass Care,
          Sheltering, Feeding, and other Technical Assistance requirements for the Individual
          Assistance mission in the regions; nor does it cover the extensive training provided to
          Individual Assistance cadre members during steady state and on response operations.

          With respect to the draft report's eleven recommendations, FEMA concurs with the
          recommendations with the exceptions noted below. While we will be providing
          corrective action plans in our 90-day response, we provide the following information:

          Recommendalion 1#1: Complete the statutorily required annual reports from the
          Regional Emergency Communications Coordination Working Groups to ensure that any
          issues identified in the regions are addressed and 10 assess communications capabilities in
          the regions.

          Response; FEMA concurs with this recommendation and has already finalized the 2009
          Regional Emergency Communications Coordination Working Groups report. The report
          is undergoing final review within FEMA and will be provided to the DIG upon final
          clearance. Upon transmittal to the OIG. FEMA will ask that this recommendation be
          considered closed.

          Re<:ommendadon 1#2: Ensure that FEMA fulfills its ESF-3 requirements, including
          coordinating with ESF-3 primary and support agencies on both planning and operations.

          Response; FEMA concurs with this recommendation. The United States Anny Corps of
          Engineers (USACE) is the lead ESF·3 agency during the response phase, while FEMA is
          lead during the recovery phase. FEMA Public Assistance (PA) and the USACE have a
          longstanding partnership that involves continued interaction and coordination before,
          during, and after emergency and disaster declaration. FEMA ensures that it fulfills its
          ESF-3 requirements and responSibilities through the PA Program by staffing the
          Infrastructure Support Branch Director position when ESF-3 or other infrastructure ESFs
          are activated pursuant 10 the National Response Framework (NRF). The strong
          partnership has included regular meetings, teleconferences, planning workshops,joint




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                    Page 59
 

Appendix B
Management Comments to the Draft Report




          Page 5

          training, and guidance of debris removal. Interagency task forces are also in place for
          debris. levee, and other recovery related issues. FEMA and USACE are regular
          participants in semi-annual Senior Leadership seminars, tabletop ellen::ises, and National
          Level Ellercises. FEMA PA involves USACE and other relevant agencies, such as the
          Envirorunental Protection Agency (EPA) and the United State Coast Guard (USCG) in
          the development and review of it guidance and policies. FEMA PA also regularly
          partners with USACE, EPA, USCG, Department ofTransportation (DOn, and the
          National Resources Conservation Service (NRCS) to establish Interagency Debris Task
          Forces, Interagency Wet Debris Task Forces, and Interagency Levee Task Forces in order
          to coordinate federal response.

          FEMA asks that this recommendation be considered closed.

          Recommendation #3: Eumine FEMA's classification as a primary agency for ESF-3
          since its roles and responsibilities are similar to those ofother support agencies and
          examine the suitability of all listed ESF-3 support agencies given that they are often not
          active participants in planning or ellen::ises.

          Response: FEMA concurs with this recommendation and will continue to ellamine its
          current role under ESF-3. However, at this time. FEMA does not plan to propose a re-
          designation ofFEMA under ESF·3, and FEMA does play a primary role for
          infrastructure during the recovery phase.

          Recommendation #4: Ensure ESF-3 responsibilities are aligned with the National
          Disaster Recovery Framework and evaluate whether FEMA's recovery portion ofESF·3
          is still a necessary part of ESF-3 and the National Response Framework as a whole.

          Response: FEMA concurs with this recommendation and has continued the partnership
          with USACE, as well as with other agencies and partners, in the dcvelopment of the
          National Disaster Recovery Framework (NDRF) and the Recovery Support Function
          (RSF) construct. The transitions between ESFs under the National Response Framework
          (NRF) and the RSFs under the NDRF are being discussed and coordinated as the RSF
          annexes are developed. Additionally, the NRf is scheduled for revision in 2011,
          providing an opportunity to address NDRF transitional issues within the NRF itselfas
          appropriate.

          Recommendation #5: Reassess the structure and function of ESF-6to detennine
          whether each component's responsibility is essential when responding to an event.

          Response: FEMA does not concur with this recommendation. FEMA recognizes the
          scope ofESF-6 can be cumbersome at times; however, we do not agree that any pan of
          ESF-6 is non-essential. FEMA coordinates the many parts of ESF-6 from response
          through recovery, ensuring that individuals and families transition through the full
          spectrom of federal, State, voluntary agency, and private sector assistance. Eliminating




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                   Page 60
 

Appendix B
Management Comments to the Draft Report




          Page 6

          any single component of the ESF-6 mission could diminish or eliminate the critical
          services available in ESF--6, from sheltering and feeding through case management and
          interim housing. As an alternative to this recommendation, 010 could recommend that
          FEMA continue to enhance the capability and readiness ofESF--6 through national
          exercises and training with their ESF-6 support agencies.

          R«ommendation #6: Develop contingency plans on how to handle an event if
          nonprofit and private partners cannot assist with response efforts.

          Response: In order to respond to this recommendation, FEMA needs further
          clarification. The term ''private partners" is unclear in this context - is the DIG's concern
          that Technical Assistance Contract support will be diminished, or the entire private
          sector? FEMA recommends either re-writing or eliminating this recommendation-
          contingency plans are in place nationally and have been coordinated with our Voluntary
          Agency partners.

          Recommendation #7: Link the new ESF-6 disaster infonnation tools to its missions.

          Response: In order to respond to this recommendation, FEMA needs further clarification
          and will be unable to implement this recommendation as written.

          Recommendation #8: Complete Operational Readiness Evaluations for the Urban
          Search and Rescue Task Forces that have yet to be evaluated during this evaluation cycle.

          Response: FEMA concurs with this recommendation and has taken the action to
          implement it. The National Urban Search and Rescue (US&R) Program completed the
          CWTent generation of on-site Operational Readiness Evaluations (OREs) of Task Forces.
          CA-TFI and CA-TF2 were completed in June 2010 and NY-TFI and VA-TFI were
          completed in July 2010. All 28 National US&R Task Forces have now been evaluated
          using the current ORE criteria.

          FEMA asks that this recommendation be considered closed.

          Rerommendation #9: Develop deployment procedures to assist ESF-14 officials to
          identify and deploy needed recovery services to disaster affected communities through its
          ESF-14 partners.

          Response: FEMA concurs with this recommendation. ESF-14 has been making efforts
          to evolve its interagency structure in its 5 years of existence. Prior to the initiation of the
          National Disaster Recovery Framework, ESF-14 had been working to develop a
          substructure 10 better organize agencies, and their capabilities. These Recovery Support
          Functions groupings originally developed under ESF-14 were evaluated, and modified
          for inclusion in the NDRF. When the NDRF is finalized, it is expected that roles and
          responsibilities for partner agencies will be increased. In general, partner agencies will




                        Assessment of Federal Emergency Management Agency’s
 

                        Emergency Support Function Roles and Responsibilities
 


                                                      Page 61
 

Appendix B
Management Comments to the Draft Report




          Page 7

          be expected to clearly identify the programs contributing recovery services and clearly
          identify agency personnel with the necessary qualifications to participate in long term
          community recovery (LTCR) assistance efforts. Concurrent with this recommendation,
          ESF-14 is also underway with plans to address a similar recommendation from the
          Government Accountability Office (GAO) to develop clear and consistent criteria for
          when ESF-14 will become involved in a disaster. This recommendation and the GAO
          recommendation will be integrated into a general procedure for deployment ofESF-14 or
          successor efforts under the NDRF.

          Recommendation #10: Schedule regular ESF-14 exercises and establish outcome
          metrics for these exercises.

          Response: FEMA concurs with this recommendation.. A significant challenge for
          establishing proper exercises and measuring outcome metrics is the presence of an
          organized and planned system that works between local and state govemments and then
          regional and national federal agencies. There are currently no requirements nor doctrine
          for preparedness plans for long term recovery planning at any level. It is challenging at
          best to exercise plans that do not currently exist. Current catastrophic and other disaster
          preparedness planning does not fully include long term community recovery.

          FEMA has been working to include ESF-14 Long Term Recovery in recent exercises,
          including Liberty RadEx, and National Level Exercise (NLE) 20 I O. More extensive long
          term recovery elements are planned for inclusion in the National Level Exercise for 2011,
          to include New Madrid. The National Disaster Recovery Framework, which is still
          under development, sets expectations for recovery preparedness planning for all levels of
          government. We expect that upon publication of the NDRF additional efforts will be
          made to develop national doctrine and expectations for all levels of long term recovery
          planning that will greatly aid in definition ofmetrics that will be meaningful for use in
          developing exercises.

          Recommendation #11: Collaborate with the FEMA Office of Policy and Program
          Analysis to ensure that all federal agencies and departments with a role in ESF-15
          activities are properly included in the National Response Framework.

          Response: FEMA concurs with the recommendation with the modification that the
          Office of Policy and Program Analysis is not the proper collaborative partner for this
          activity. FEMA will coordinate with the appropriate office, Protection and National
          Preparedness, to ensure that the appropriate federal agencies and departments having a
          role in ESF-15 are included in the revised version of the National Response Framework.
          FEMA External Affairs will also coordinate with the DHS - Office of Public Affairs to
          support and ensure all appropriate federal agencies and departments with a role in ESF 15
          are closely coordinated. This process will begin in the next 30 days, and the timeline for
          inclusion in the National Response Framework will be at the discretion of Protection and
          National Preparedness.




                       Assessment of Federal Emergency Management Agency’s
 

                       Emergency Support Function Roles and Responsibilities
 


                                                    Page 62
 

Appendix B
Management Comments to the Draft Report




         Page 8

         Thank you again for the opportunity to comment on this draft report and we look forward
         to working with you on other issues as we both strive to improve FEMA.




                      Assessment of Federal Emergency Management Agency’s
 

                      Emergency Support Function Roles and Responsibilities
 


                                                 Page 63
 

     Appendix C
     Emergency Support Function Coordinators and Primary and Support Agencies


                                                                                                       EMERGENCY SUPPORT FUNCTIONS
                          #1                #2                  #3              #4              #5                 #6                  #7                #8               #9                  #10                  #11                 #12      #13                  #14                 #15




                                                                                                                                                                                                                                                                    Community Recovery
                                                                                                            Assistance, Housing,
                                                                                                            and Human Services




                                                                                                                                                                                              Materials Response
                                                                                                                                                                          Search and Rescue




                                                                                                                                                                                                                   Natural Resources
                                                                                                                                                                                              Oil and Hazardous
                                                                                                                                   Resource Support
                                                             Public Works and




                                                                                                                                                      Public Health and




                                                                                                                                                                                                                                                Public Safety and
                                                                                                                                   Management and
                                            Communications




                                                                                                                                                      Medical Services




                                                                                                                                                                                                                   Agriculture and




                                                                                                                                                                                                                                                                                         External Affairs
                           Transportation
       Agency




                                                                                               Management
                                                             Engineering

                                                                                Firefighting

                                                                                               Emergency



                                                                                                            Emergency
                                                                                                            Mass Care,




                                                                                                                                                                                                                                                                    Long-Term
                                                                                                                                   Logistics




                                                                                                                                                                                                                                                Security
                                                                                                                                                                                                                                       Energy
 USDA                                                         S                                  S                  S                   S                 S                                        S               C/P/S               S                                 P               S
 USDA/FS                   S                S                 S                 C/P                                 S                   S                 S               S                        S                                                S
 DOC                       S                S                 S                  S               S                                      S                 S               S                        S                   S               S            S                    S               S
 DOD                       S                S                 S                  S               S                  S                   S                 S               P                        S                   S               S            S                    S               S
 DOD/USACE                 S                                 C/P                 S                                  S                   S                 S               S                        S                   S               S            S                    S
 ED                                                                                             S                                                                                                                                                                                        S
 DOE                       S                                     S                              S                                      S               S                                           S                   S               C/P          S                 S                  S
 HHS                                                             S                              S                   S                  S              C/P                  S                       S                   S                                              S                  S
 DHS                       S                S                    S                              S                                      S               S                   S                       S                   S               S            S                 P                  C
 DHS/FEMA                  S                P                    P              S              C/P             C/P/S                  C/P              S                  C/P                      S                   S                                             C/P                 P
 DHS/NCS                                                                                                                               S                                                                                               S
 DHS/USCG                  S                                     S              S                                                                         S               P                        P                                                S
 HUD                       C/P                                                                   S                  S                                                                                                                                                    P               S
 DOI                       S                S                    S              S                S                  S                   S                 S               P                        S                P/S                S            S                    S               S
 DOJ                       S                                                                                        S                                     S               S                        S                 S                                                                   S
 DOL                                                             S                               S                  S                   S                 S               S                        S                 S                 S                                 S               S
 DOS                      S                                      S              SS               S                                                        S                                        S                 S                 SC/P                                              S
 DOT                     C/P                                     S                               S                  S                   S                 S                                        S                 S                 S                                 S               S
C = ESF Coordinator, P = Primary Agency, S = Support Agency



                                                                                                 Assessment of Federal Emergency Management Agency’s
                                                                                                 Emergency Support Function Roles and Responsibilities

                                                                                                                                     Page 64
     Appendix C
     Emergency Support Function Coordinators and Primary and Support Agencies


                                                                                  EMERGENCY SUPPORT FUNCTIONS (continued)
                          #1               #2                 #3               #4   #5    #6      #7    #8   #9      #10                                                                                    #11                 #12      #13                  #14        #15




                                                                                                                                                                                       Materials Response
                                                                                                                                                                   Search and Rescue




                                                                                                                                                                                                            Natural Resources
                                                                                                                                                                                       Oil and Hazardous
                                                                                                                            Resource Support
                                                            Public Works and




                                                                                                                                               Public Health and




                                                                                                                                                                                                                                         Public Safety and
                                                                                                                            Management and
                                           Communications




                                                                                                                                               Medical Services
                                                                                                           Human Services




                                                                                                                                                                                                            Agriculture and




                                                                                                                                                                                                                                                                         External Affairs
                          Transportation




                                                                                                           Housing, and
                                                                                              Management
      Agency




                                                            Engineering




                                                                                                           Assistance,
                                                                               Firefighting




                                                                                                                                                                                                                                                             Community
                                                                                              Emergency


                                                                                                           Emergency
                                                                                                           Mass Care,




                                                                                                                                                                                                                                                             Long-Term

                                                                                                                                                                                                                                                             Recovery
                                                                                                                            Logistics




                                                                                                                                                                                                                                         Security
                                                                                                                                                                                                                                Energy
 TREAS                                                                                          S               S                                                                                                                            S                  S        S
 VA                                                             S                               S               S                S                 S                                                                                         S                           S
 EPA                                                            S              S                S                                                  S                                   C/P                      S               S            S                  S        S
 FCC                                       S                                                    S                                                                                                                                                                        S
 GSA                       S               S                    S                               S               S              C/P                 S                                        S                   S                                                        S
 NASA                                                                                           S                               S                                  S                                                                         S                           S
 NRC                                                            S                               S                                                                                                                               S                                        S
 OPM                                                                                            S                                S                                                                                                                                       S
 SBA                                                                                            S               S                                                                                                                                               P        S
 SSA                                                                                                            S                                                        S                                                                   S                           S
 TVA                                                            S                               S                                                                                                                               S                                        S
 USAID                                                                                                                                             S               S                                                                                                     S
 USPS                      S                                                                    S               S                                  S                                                            S                            S                           S
 ACHP                                                                                                                                                                                                           S
 ARC                                                            S                               S               S                                  S                                                            S                                               S
 CNCS                                                           S                                               S                                                                                                                                               S
 DRA                                                                                                                                                                                                                                                            S
 HENTF                                                                                                                                                                                                          S
 NARA                                                                                                                                                                                                           S
 NVOAD                                                                                                          S                                                                                                                                               S
C = ESF Coordinator, P = Primary Agency, S = Support Agency


                                                                                                 Assessment of Federal Emergency Management Agency’s
                                                                                                 Emergency Support Function Roles and Responsibilities

                                                                                                                             Page 65
Appendix C
Emergency Support Function Coordinators and Primary and Support Agencies

Abbreviations for Departments and Agencies Listed in the Emergency
Support Functions Table
   USDA 	          U.S. Department of Agriculture
   USDA/FS 	       U.S. Department of Agriculture/Forest Service
   DOC 	           Department of Commerce
   DOD 	           Department of Defense
   DOD/USACE 	     Department of Defense/U.S. Army Corps of Engineers
   ED 	            Department of Education
   DOE 	           Department of Energy
   HHS 	           Department of Health and Human Services
   DHS 	           Department of Homeland Security
   DHS/NCS 	       Department of Homeland Security/National Communications
                   System
   DHS/USCG 	      Department of Homeland Security/U.S. Coast Guard
   HUD 	           Department of Housing and Urban Development
   DOI 	           Department of Interior
   DOJ	            Department of Justice
   DOL 	           Department of Labor
   DOS 	           Department of State
   DOT 	           Department of Transportation
   TREAS 	         Department of Treasury
   VA         	    Department of Veterans Affairs
   EPA 	           Environmental Protection Agency
   FCC 	           Federal Communications Commission
   GSA 	           General Services Administration
   NASA 	          National Aeronautics and Space Administration
   NRC 	           Nuclear Regulatory Commission
   OPM 	           Office of Personnel Management
   SBA 	           Small Business Administration
   SSA 	           Social Security Administration
   TVA        	    Tennessee Valley Authority
   USAID 	         U.S. Agency for International Development
   USPS 	          U.S. Postal Service
   ACHP 	          Advisory Council on Historic Preservation
   ARC 	           American Red Cross
   CNCS	           Corporation for National and Community Service
   DRA 	           Delta Regional Authority
   HENTF 	         Heritage Emergency National Task Force
   NARA 	          National Archives and Records Administration
   NVOAD 	         National Voluntary Organizations Active in Disaster




                  Assessment of Federal Emergency Management Agency’s
 

                  Emergency Support Function Roles and Responsibilities
 


                                         Page 66
 

Appendix D
Major Contributors to this Report

                    Norman Brown, Lead Director
                    Donald Bumgardner, Director
                    Kaye McTighe, Director
                    Adrian Dupree, Project Manager
                    Soraya Vega, Project Manager
                    Nigel Gardner, Supervisory Program Analyst
                    Eric Young, Supervisory Auditor
                    Christine Alvarez, Program Analyst
                    Stuart Josephs, Auditor
                    Doug Campbell, Program Analyst
                    S. Ryan Hartong, Program Analyst
                    Eric Hostelley, Program Analyst
                    John Meenan, Program Analyst
                    Alexandra Vega, Program Analyst




                   Assessment of Federal Emergency Management Agency’s
 

                   Emergency Support Function Roles and Responsibilities
 


                                          Page 67
 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator
                      FEMA GAO/OIG Liaison (10-149-EMO)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Assessment of Federal Emergency Management Agency’s
 

                      Emergency Support Function Roles and Responsibilities
 


                                             Page 68
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
